<html>
<title> - [H.A.S.C. No. 113-43]NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-43]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

            NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE

          FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION ACT

                               __________

                              HEARING HELD

                              MAY 8, 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      U.S. GOVERNMENT PRINTING OFFICE

  82-458                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a>  









                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
               Jaime Cheshire, Professional Staff Member
                 Tim McClees, Professional Staff Member
                           Aaron Falk, Clerk
                Joe Sangiorgio, Communications Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, May 8, 2013, National Defense Priorities from Members 
  for the Fiscal Year 2014 National Defense Authorization Act....     1

Appendix:

Wednesday, May 8, 2013...........................................    41
                              ----------                              

                         WEDNESDAY, MAY 8, 2013
   NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL YEAR 2014 
                   NATIONAL DEFENSE AUTHORIZATION ACT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Barr, Hon. Garland ``Andy,'' a Representative from Kentucky......    21
Blackburn, Hon. Marsha, a Representative from Tennessee..........    10
Broun, Hon. Paul C., a Representative from Georgia...............    17
Cartwright, Hon. Matthew A., a Representative from Pennsylvania..     6
Crawford, Hon. Eric A. ``Rick,'' a Representative from Arkansas..    24
DeSantis, Hon. Ron, a Representative from Florida................    31
Fattah, Hon. Chaka, a Representative from Pennsylvania...........    18
Gabbard, Hon. Tulsi, a Representative from Hawaii................    33
Gosar, Hon. Paul A., a Representative from Arizona...............    36
Green, Hon. Al, a Representative from Texas......................    37
Hanna, Hon. Richard L., a Representative from New York...........    20
Heck, Hon. Denny, a Representative from Washington...............    14
Hudson, Hon. Richard, a Representative from North Carolina.......    11
Jackson Lee, Hon. Sheila, a Representative from Texas............    30
Kildee, Hon. Daniel T., a Representative from Michigan...........    15
Lee, Hon. Barbara, a Representative from California..............    27
McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Nunes, Hon. Devin, a Representative from California..............     3
O'Rourke, Hon. Beto, a Representative from Texas.................    38
Pierluisi, Hon. Pedro R., Resident Commissioner from Puerto Rico.    12
Posey, Hon. Bill, a Representative from Florida..................    29
Roskam, Hon. Peter J., a Representative from Illinois............    19
Ros-Lehtinen, Hon. Ileana, a Representative from Florida.........    26
Sherman, Hon. Brad, a Representative from California.............    35
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Takano, Hon. Mark, a Representative from California..............     2
Thompson, Hon. Glenn, a Representative from Pennsylvania.........     8
Young, Hon. Don, a Representative from Alaska....................    22

                                APPENDIX

Prepared Statements:

    Barr, Hon. Garland ``Andy''..................................   137
    Bilirakis, Hon. Gus M., a Representative from Florida........    99
    Black, Hon. Diane, a Representative from Tennessee...........   119
    Blackburn, Hon. Marsha.......................................    80
    Broun, Hon. Paul C...........................................   105
    Burgess, Hon. Michael C., a Representative from Texas........    84
    Calvert, Hon. Ken, a Representative from California..........    52
    Cartwright, Hon. Matthew A...................................   139
    Cramer, Hon. Kevin, a Representative from North Dakota.......   142
    Crawford, Hon. Eric A. ``Rick''..............................   121
    DelBene, Hon. Suzan K., a Representative from Washington.....   136
    Dent, Hon. Charles W., a Representative from Pennsylvania....    88
    DeSantis, Hon. Ron...........................................   144
    Faleomavaega, Hon. Eni F. H., a Delegate from American Samoa.   168
    Fattah, Hon. Chaka...........................................    53
    Gabbard, Hon. Tulsi..........................................   149
    Gibbs, Hon. Bob, a Representative from Ohio..................   126
    Gingrey, Hon. Phil, a Representative from Georgia............    85
    Gosar, Hon. Paul A...........................................   130
    Green, Hon. Al...............................................    90
    Hanna, Hon. Richard L........................................   132
    Heck, Hon. Denny.............................................   151
    Honda, Hon. Michael M., a Representative from California.....    68
    Hudson, Hon. Richard.........................................   153
    Hurt, Hon. Robert, a Representative from Virginia............   133
    Issa, Hon. Darrell E., a Representative from California......    72
    Jackson Lee, Hon. Sheila.....................................    54
    Kildee, Hon. Daniel T........................................   156
    Lee, Hon. Barbara............................................    63
    McClintock, Hon. Tom, a Representative from California.......   107
    McMorris Rodgers, Hon. Cathy, a Representative from 
      Washington.................................................    94
    Moore, Hon. Gwen, a Representative from Wisconsin............    96
    Nunes, Hon. Devin............................................    86
    O'Rourke, Hon. Beto..........................................   158
    Pierluisi, Hon. Pedro R......................................   170
    Pingree, Hon. Chellie, a Representative from Maine...........   108
    Posey, Hon. Bill.............................................   110
    Rice, Hon. Tom, a Representative from South Carolina.........   161
    Roskam, Hon. Peter J.........................................   100
    Ros-Lehtinen, Hon. Ileana....................................    50
    Sarbanes, Hon. John P., a Representative from Maryland.......   102
    Sherman, Hon. Brad...........................................    60
    Stivers, Hon. Steve, a Representative from Ohio..............   134
    Takano, Hon. Mark............................................   165
    Thompson, Hon. Glenn.........................................   115
    Vargas, Hon. Juan, a Representative from California..........   166
    Waxman, Hon. Henry A., a Representative from California......    49
    Young, Hon. Don..............................................    45

Documents Submitted for the Record:

    Mr. Nunes' letter to Secretary Panetta regarding Lajes Field.   175
    Slides used by Mr. Nunes.....................................   177

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]



 
                         [H.A.S.C. No. 113-43]

   NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL YEAR 2014 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Wednesday, May 8, 2013.
    The committee met, pursuant to call, at 12:35 p.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good afternoon. The House Armed Services Committee meets 
today to receive testimony from Members of Congress on their 
national defense priorities for the fiscal year 2014 National 
Defense Authorization Act [NDAA].
    In exactly 4 weeks, this committee will reconvene to mark 
up our 51st consecutive NDAA. And, as we begin crafting our 
legislation, it is essential we seek input from all Members of 
the House to better enable us to fulfill Congress' article I, 
section 8 constitutional mandate to provide for the common 
defense. We all share the responsibility to provide the best 
possible resources for our warfighters, and we look forward to 
hearing from this group of our fellow Members of Congress on 
their proposals for how best to carry out our mandate.
    In a tough budget environment, such as the one we face this 
year, I hope to enlist all of you who care deeply about our 
troops and our national security in focusing on solutions to 
the damage to our force caused by the across-the-board cuts 
known as sequestration, not just targeted fixes.
    A quick note on our format for today. In consultation with 
the ranking member, we will depart from our regular questioning 
process. Each witness will have 5 minutes to testify, followed 
by a 5-minute round of clarifying questions from the committee. 
Members of the committee may seek recognition by raised hand 
and will be granted 2 minutes apiece, up to the 5-minute limit. 
This will ensure we can hear from all witnesses today in a 
timely fashion.
    As this hearing is intended to be a listening session, it 
is not my intent to engage in extended debate or colloquy with 
all our witnesses.
    We look forward to today's testimony and thank the 
participating Members for their advocacy on behalf of our 
troops.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. I just concur in the chairman's remarks and look 
forward to hearing from all the Members.
    You know, we have 62 Members on this committee, and we work 
with them, but the entire House is interested in what goes in 
the Defense Authorization Act. So it is always good to hear 
from all the Members, and I look forward to doing that this 
afternoon.
    I yield back.
    The Chairman. Thank you.
    We, you know, go through a markup process where members of 
the committee all get to offer amendments, and then when we get 
to the floor, Members get to offer amendments. But this is a 
way to get something in the bill without going through the 
cumbersome amendment process.
    So Mr. Takano.

STATEMENT OF HON. MARK TAKANO, A REPRESENTATIVE FROM CALIFORNIA

    Mr. Takano. Mr. Chairman, thank you very much.
    Chairman McKeon, Ranking Member Smith, members of the 
committee, thank you for this opportunity to testify.
    Recently, a crew from the California Air National Guard 
that was operating a remotely piloted aircraft out of March Air 
Reserve Base was able to locate a survival raft less than 2 
minutes after being given a rough approximation of its 
position--not 2 days, not 2 hours, 2 minutes.
    We are on the cusp of a new era. Remotely piloted aircraft, 
or RPAs, simply perform tasks better than manned airplanes do.
    The majority of the United States RPA expertise, both 
combat and defense support of civil authorities, is located in 
the Air National Guard. Unfortunately, that previously 
mentioned California Air National Guard unit will be out of 
business in less than 4 years unless they are included in the 
Air Force's RPA upgrade plan, a plan they are not currently 
even mentioned in. Similar fates threaten Air National Guard 
units flying the soon-to-be-phased-out MQ-1 Predator in 
Arizona, North Dakota, Texas, and Ohio.
    The United States is on the verge of incorporating RPAs in 
the National Airspace System, and these Air National Guard 
units have the most experience of any RP [remotely piloted] 
operation. They are the true experts in how to do this right. 
In light of this, the Guard should be at the top of the list 
for conversion to safer, higher flying follow-on RPAs, like the 
MQ-9 Reaper, rather than as an afterthought.
    America needs to capitalize on the Air National Guard's 
expertise to reap fully the benefits of seamless RPA support 
for search and rescue efforts, disaster relief, and emergency 
services. Converting to the MQ-9 swiftly will also protect the 
thousands of jobs and countless small businesses that support 
these units.
    The next 5 years will see substantial, maybe even 
exponential growth in remotely piloted aircraft operations 
worldwide, and America cannot afford to squander the 
significant advantage we have in this arena.
    As the MQ-1 nears the end of its service life, it is 
absolutely imperative that the Air Force revises its RPA 
upgrade plan and upgrades the forgotten Air National Guard MQ-1 
units in California, Arizona, North Dakota, Texas, and Ohio to 
the MQ-9 as quickly as possible to prevent a gap in mission 
coverage. This will also ensure we capitalize on, rather than 
lose, the Air National Guard's critical expertise and maintain 
America's lead beyond the approaching RPA horizon.
    While the Air Force does have a strategic basing process 
for the recapitalization of MQ-1s to MQ-9s, the criteria do not 
place proper emphasis on the importance of current MQ-1 flight 
training schoolhouses. The Air Force should prioritize the 
replacement of MQ-1s with MQ-9s at locations with existing 
flight training unit schoolhouses, which would allow the Air 
Force to capitalize on existing infrastructure, trained 
personnel, instructor expertise, and save taxpayer money.
    We need to see a formal recapitalization plan for the 
replacement of all National Guard MQ-1 aircraft with MQ-9 
aircraft. That plan should contain the criteria for bed-down, 
including both the weight and scoring that will be given to MQ-
1 wings and squadrons with collocated flight training unit 
schoolhouse missions.
    That concludes my testimony, Mr. Chairman.
    [The prepared statement of Mr. Takano can be found in the 
Appendix on page 165.]
    The Chairman. Boy, you used the exact minute, right to the 
second.
    Mr. Takano. I didn't want to outstay my welcome, sir.
    The Chairman. You did a very good job.
    Mr. Takano. Thank you.
    The Chairman. Thank you very much. Appreciate it.
    I said in my opening statement we would have 5 minutes, but 
it will be 4 minutes. In all of the Members that we have signed 
up, it worked out we will only have 4 minutes.
    Next will be Mr. Nunes from California.

STATEMENT OF HON. DEVIN NUNES, A REPRESENTATIVE FROM CALIFORNIA

    Mr. Nunes. Thank you, Mr. Chairman and Ranking Member 
Smith. I appreciate the opportunity to testify.
    I have a letter that I would like to submit for the record 
based on the Air Force's decision to draw down forces at Lajes 
Field on Terceira Island.
    The Chairman. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 175.]
    Mr. Nunes. Lajes has an unparalleled strategic value. 
Located on the Azore islands between Europe and the United 
States, it is like the Hawaii of the Atlantic Ocean, only 
closer to America's homeland.
    The islands belong to Portugal, a strong U.S. ally since 
World War II that has never prevented us from conducting 
operational missions. The base was critical to our tracking of 
Soviet submarines during the cold war. Today, it allows us 
access to Europe, the Middle East, to Western and Sub-Sahara 
Africa. It is also a vital site for countering AQIM [Al Qaeda 
in the Islamic Maghreb] and other jihadist groups in Southern 
Sahara Africa.
    Furthermore, Lajes is well-positioned to act as a 
logistical hub, not only for Department of Defense, but for 
USAID [United States Agency for International Development], the 
State Department, and other agencies.
    I want to bring Lajes to your attention today due to the 
dire consequences of the decision to draw down the base. Our 
strategic planners may believe we can leave a mere skeletal 
operation at Lajes and retain access there, but, in reality, 
the decision means a total end to the U.S. presence at the 
facility.
    Scaling back to current plans will severely impact the 
Azorian economy, forcing authorities to look for a new tenant 
for the site. In light of Portugal's weak economy, we do not 
want to make Azorians choose between their loyalty to the 
United States and the ability to feed their families.
    Next slide, please.
    [The slide referred to can be found in the Appendix on page 
177.]
    Mr. Nunes. While our strategic planners may not want to be 
in the Azores anymore, leaders of other nations feel 
differently. Several high-ranking Chinese officials have 
visited the Azores in recent years, culminating in a June 2012 
visit by Premier Wen Jiabao. The Chinese did not divulge what 
these delegates were doing there, but I highly doubt they were 
sipping port and enjoying the pleasant climate.
    Next slide, please.
    [The slide referred to can be found in the Appendix on page 
178.]
    Mr. Nunes. Crucially, we cannot assume the Portuguese will 
exclude China or other bad actors from the site simply out of 
allegiance to the United States. The recent decision to send 
500 U.S. Marines to Moron, Spain, a contingent that would have 
much more flexibility at the logistics hub of Lajes, could 
easily be perceived as a calculated insult to our Portuguese 
allies.
    I fully understand the budget reality we face. However, as 
we reduce our European footprint comprising of 110,000 
personnel and 29 military installations, we need to consider 
each site's geostrategic value. It would cost billions to build 
a base like Lajes today. And if our strategic planners insist 
on giving up something this vital, then at the very least I 
would urge this committee to create a pilot program to 
privatize its operations to guarantee 24/7 access to the site 
for TRANSCOM [Transportation Command] and other agencies.
    I would like to draw the final slide. It is up on the 
screen now.
    [The slide referred to can be found in the Appendix on page 
179.]
    Mr. Nunes. In conclusion, the retention of Lajes was not an 
issue for 70 years--70 years--because prior planners never 
contemplated surrendering something so crucial to the United 
States interests.
    And I leave this committee with three questions. The first: 
If we withdraw from Lajes, should we assume that Chinese and 
Russian submarines will suffer some mishap that prevents them 
from sailing beneath the Atlantic Ocean?
    Second, if we withdraw from Lajes, should we assume that 
jihadists will stop training in Sub-Sahara Africa?
    And, finally, I want to draw your attention to the map and 
ask an extremely simple question: If the U.S. Government wants 
to fulfill its responsibility to protect the United States, its 
people, and its interests, then I ask you to look at the map, 
and what location of the 29 locations on the map is most 
critical? I would argue that a strategic site equivalent to 
Hawaii in the Atlantic Ocean is the most critical.
    And, with that, Mr. Chairman and Ranking Member, I 
appreciate your time, and I look forward to answering any 
questions that you may have.
    [The prepared statement of Mr. Nunes can be found in the 
Appendix on page 86.]
    The Chairman. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Nunes, let me be sure I understand. So the military 
thinks they can leave a skeletal force and then come back if we 
need it. And your point is that if we leave, they have, by 
necessity, got to do something else with the base, and so it 
will not be an option to come back.
    Mr. Nunes. Right. I think rough numbers, Mr. Thornberry, is 
that it would cost multiple billions dollars to construct a 
base like we have there today. It is a 10,000-foot runway, 
hundreds of homes and facilities. It used to house 5,000 
troops; today it is down to 500.
    So the problem is, if you want to draw down from 500 to 50 
or 75 or 100 and then cut the civilian workforce there, I mean, 
this is a no-brainer that they are going to want to sell that 
base, because the economics are going to require it. That is 
the problem.
    You have 25 percent unemployment on the islands already. In 
mainland Portugal, you have 20 percent unemployment. Likely, if 
you close this base, you are going to see 35 or 40 percent 
employment. That is not a sustainable economic model.
    Mr. Thornberry. And so the danger is, if we walk away, we 
lose it forever.
    Mr. Nunes. Right. If we walk away and draw down, the 
Portuguese will be forced to make a very tough decision, which 
is, do we support the United States, which I think they want to 
do, or do we make a strategic decision to try to feed our 
families? And that will be the decision they will be down to.
    Mr. Thornberry. Okay. And could you just briefly, again, 
describe what you are suggesting about private----
    Mr. Nunes. Well, roughly, I would think that--this has been 
tried some times. It has been tried some times in the past. But 
I think, roughly, they are spending about $50 million a year 
there now. I think they are trying to draw it down closer to 
$30 million. The base is going to go to part-time; it is going 
to be a skeleton crew.
    I would argue that maybe we could use that $30 million to 
look for a way to keep it open 24/7 under a smaller maybe 
military contingent, but locals possibly, and we could get more 
for less. We could actually save the government money.
    I mean, look, I don't believe that we should withdraw the 
presence there at all. In fact, I would argue that we should 
probably increase the presence at Lajes and draw down other 
facilities. But if they are dead set in their plans, perhaps 
this is an opportunity for a pilot project to privatize and 
save some money and, most importantly, keep our access there.
    Mr. Thornberry. Thank you.
    The Chairman. Mr. Cook.
    Mr. Cook. Yes, sir. I have a quick comment and maybe a 
question.
    And, by the way, I support what you are saying there.
    And I would just call the committee's attention to a little 
bit of history. And that was, many, many years ago, when the 
Shah of Iran's regime had changed, there were certain 
contingencies. And it was about relief forces that were to go 
into Iran via that particular base, then into insulate Turkey, 
and then into Tehran. At that time, it was to evacuate the 
embassy. Never happened for a variety of reasons, one of which 
is the op plans, I think, were leaked to the press.
    I kind of know the area a little bit. I would hope that the 
military has reviewed that. But with the situation in the 
Middle East with Syria and Iran, I just think that the 
gentleman from California is making an excellent point about 
the importance of that. I didn't even know it was going to be 
on the docket today, but I did want to offer that support.
    Thank you. I yield.
    Mr. Nunes. Well, thank you, Mr. Cook. And I appreciate your 
service to our country.
    And I would point out that, in the past, similar times 
throughout history, almost all the other European countries 
have blocked our access except for Portugal.
    The Chairman. Any further questions?
    Thank you. Thank you very much for your presentation.
    Mr. Nunes. Thank you, Mr. Chairman.
    The Chairman. Next would be Mr. Cartwright from 
Pennsylvania.

STATEMENT OF HON. MATTHEW A. CARTWRIGHT, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Cartwright. Thank you, Chairman McKeon, Ranking Member 
Smith, members of the House Armed Services Committee. I come 
before you today to testify about the importance of our defense 
industrial base and specifically about military depots.
    Right now, we stand at the tail end of two long wars that 
have stretched our budgets and severely strained our All-
Volunteer Force. As the committee is well aware, hard choices 
about defense spending will have to be made in the near future. 
In order to shrink our defense budget to fit a peacetime force, 
this committee will have to identify programs that are no 
longer vital to American safety, while at the same time 
maintain funding for readiness for a myriad of continuing 
threats.
    I hope you will join me in supporting replacing the 
sequester-level cuts with a defense budget policy that 
thoughtfully and appropriately reshapes our fighting forces.
    Now, depots. Our military depots are a fiscally prudent 
tool in maintaining readiness. As you set their budget, I urge 
you to consider the value of depots to the warfighter, the 
return on the investment that the American taxpayer receives 
from depots, and the indispensable economic role these 
facilities play in communities where they are located.
    In my district alone, the Tobyhanna Army Depot, the Army's 
only C4ISR [command, control, communications, computers, 
intelligence, surveillance and reconnaissance] communications 
depot, generates $1.68 in economic activity for every dollar 
invested. Additionally, every job at Tobyhanna generates two 
and a half jobs in the larger community. Letterkenny Army 
Depot, also in my State, generates over one and a half local 
jobs for every employee who goes to work for the base.
    In many cases, as with Tobyhanna, depots are the largest 
employers in their respective congressional districts. Dramatic 
reductions would economically devastate these communities.
    I would further ask you to consider the impact 
sequestration and the fiscal year 2013 continuing resolution 
have already had on Tobyhanna. Five hundred people have already 
lost their jobs. Projected funding is about $100 million below 
what was originally planned, and funding actually received by 
the depot is now only about 72 percent of the revised scaled-
back plan.
    Work stoppages on several key systems will begin occurring 
next month. To maintain costs of competitiveness, the depot has 
curtailed contracts and canceled its capital investment program 
for this fiscal year.
    As the ability of depots to refurbish essential supplies 
becomes lost because of such costs, the outlook for better 
integrating our forces through upgraded communications networks 
and equipment becomes bleaker. As Army Chief of Staff General 
Raymond T. Odierno stated last August, network upgrades remain 
the Army's, quote, ``number-one modernization priority,'' 
unquote.
    Now, going forward, last year the House voted to cut nearly 
$2 billion from our military depot budget. Depots are required 
to run like businesses. They have to win work and remain cost-
competitive within the private sector. If they can't do so, 
they have to cut costs. Slashing their operational funding 
means they are able to do less work. And if overhead costs 
become too great a percentage of total costs, the facility 
becomes less competitive when bidding for new work. That leads 
to the kind of a death spiral that is just doomsday for a 
depot.
    In addition to increasing operational funds, this committee 
should seek to enforce the 50-50 rule and ensure that the 
essential go-to-war items are identified so that depots 
maintain sufficient workload. We should use the oversight power 
of Congress to ensure that the service branches move quickly to 
establish new systems that will be supported by depots and that 
will support depot workloads for decades to come.
    I urge you to authorize an expansion of the electronic 
technology that tomorrow's warfighter will need, along with 
increased direct funding for our Nation's military depots. Only 
a well-equipped, well-supported force will allow America to 
meet all of its future threats.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Cartwright can be found in 
the Appendix on page 139.]
    The Chairman. Thank you very much.
    Any questions of the gentleman?
    Thank you very much.
    Next is Mr. Thompson from Pennsylvania.

    STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Thompson. Chairman McKeon, Ranking Member Smith, 
members of the Armed Services Committee, I want to thank you 
for allowing me to testify before you today.
    This committee has done an excellent job supporting the 
brave men and women who serve our country, which is a passion I 
share with each of you.
    Two years ago I worked very closely with the committee to 
include the Servicemembers' Telemedicine and E-Health 
Portability Act, or STEP Act, in the fiscal year 2012 National 
Defense Authorization Act, which was signed into law in 
December 2012. The STEP Act was a positive step forward in 
modernizing how the Department of Defense delivers health care. 
Specifically it made widespread telemedicine possible and 
accessible by expanding the State licensure exemption to all 
DOD [Department of Defense] healthcare professionals, 
regardless where they are or the patient is located.
    Many committee members have worked closely on the issue of 
mental health and suicide prevention and know just how 
important it is for our service members to get treatment 
without delay. Of equal importance is ensuring our service 
members can access care without the stigma that is often 
associated with seeking mental health treatment. The STEP Act 
is assisting with achieving these very goals.
    Last year, after passage of the STEP Act, the Army was able 
to perform nearly 36,000 teleconsultations, which included over 
31,200 tele-behavioral health clinical encounters. This is an 
incredible achievement and a great start. Since its passage I 
have worked closely with the Department of Defense to monitor 
its implementation.
    In large part the services have embraced these changes. In 
a new memo to the service chiefs this year, the Department of 
Defense presented the first part of the STEP Act implementation 
with a broad waiver to expand telemedicine. This waiver was a 
tremendous step forward.
    However, there remains two issues which the Department of 
Defense needs to address. First, the waiver does not allow 
service members to use telemedicine from their homes, only 
fixed facilities. Second, TRICARE providers were not included 
as a part of this waiver for licensure portability. However, 
the STEP Act has already clearly addressed both of these waiver 
issues. And this is my concern, that the Department of Defense 
has not fully implemented the spirit of the law.
    We need to make health services and care as convenient and 
accessible as possible, especially when it comes to the mental 
health. There is no better way to remove the stigma of seeking 
mental health from a bricks-and-mortar facility, in plain sight 
of colleagues than to allow our service members to access care 
in the comfort and privacy of their own homes.
    I did have the opportunity to speak yesterday with Dr. 
Jonathan Woodson, the Assistant Secretary of Defense for Health 
Affairs, and relayed some of my concerns to him. As we move 
forward, I would appreciate your help with that.
    I cut short some of my original prepared remarks just to 
elevate an issue that came from constituents just this week. 
And I would just ask, with this, the committee's close 
oversight as we prepare to draw down and depart from 
Afghanistan. This week I received multiple constituent contacts 
from members of the military currently deployed in Afghanistan. 
They were from different FOBs [forward operating bases], but 
had the same issue: hunger.
    I recognize, as they do, that we are at war, and at times 
of war circumstances will dictate nights when the troops won't 
go to sleep, and will go to sleep hungry, or may not go to 
sleep at all. That is what happens when you are at war, at 
times. But the situation I am talking about is not one of those 
times.
    In a conversation with CENTCOM [Central Command] on this 
issue, after the constituent contacts, I was provided the U.S. 
Expeditionary Mindset Campaign Key Messages. Bullet 4 of that 
document states, quote, ``It is no longer business as usual. We 
do not need money for non-mission-essential resources. In this 
cost culture, we need to ask, Do we need it?''
    Well, colleagues, I would argue that the safety, shelter, 
and sustenance--or food--are mission-essential resources and an 
obligation to the men and women serving in harm's way. I just 
ask your oversight that we fulfill these mission essentials 
until the last set of boots are out of Afghanistan.
    Let me close with sharing just the following email I 
received 2 days ago from a constituent. It is short. I got it 
May 6. And it is a quote.
    ``So they took away breakfast and midnight chow and 
replaced it MREs [Meal Ready to Eat]. It doesn't affect me much 
because it's helping me lose weight, but the guys I work with 
that work a 12-hour shift overnight really get hosed. What they 
have been doing is going to dinner, which is their breakfast, 
grabbing a to-go plate for a meal later on. Tonight''--and I 
replaced the position with just senior NCO [noncommissioned 
officer]--``told them that they're not allowed to do that. 
Other times the dining facility soldiers have told the guys 
that they can only take one MRE. Basically these guys are 
trying to starve people, I think. Just filling you in. Maybe a 
phone call to someone would help.''
    Well, I hope the opportunity that you have allowed me 
today, quite frankly, has fulfilled that constituent's request. 
And I yield back.
    [The prepared statement of Mr. Thompson can be found in the 
Appendix on page 115.]
    The Chairman. The gentleman's time has expired.
    We will include your whole statement in the record. No 
objection.
    Thank you very much.
    Mr. Thompson. Thank you.
    The Chairman. Ms. Blackburn from Tennessee.

   STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE FROM 
                           TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, Ranking Member 
Smith. We appreciate the opportunity to testify today.
    I represent the Seventh Congressional District of 
Tennessee, which is home to the brave men and women of Fort 
Campbell, and that is home to the storied 101st Airborne, the 
5th Special Forces Group, and the Army's 160th Special 
Operations Aviation Regiment, which piloted Navy SEAL [Sea, 
Air, and Land] Team 6 during the raid on Osama bin Laden.
    The nearly 3,500 officers and 27,000 enlisted personnel who 
call Fort Campbell home have gone through intensive training 
which has pushed their minds and bodies to the limits. In the 
end, those who made the cut have truly earned the right to be 
part of the U.S. military and serve on the front lines in the 
fight against terrorism.
    However, due to the extreme cuts facing our military under 
sequestration, some of our military readiness programs are in 
jeopardy. One program that I am especially concerned about is 
the Flying Hour Program. This vital program provides aviation 
training resources for individual crew members and units 
according to approved aviation training strategies. In 
addition, it also provides individual and collective 
proficiency in support of ongoing combat and noncombat air 
operations. For aviation units like the 101st Airborne, this 
training is not only vital to mission success, but to the 
safety of our soldiers.
    As a result of sequestration, the Army has already begun 
curtailing training, canceling training center rotations, 
ending collective training above the platoon level except for 
the next-to-deploy units, and reducing flying hours, which is 
leaving many units unprepared for possible contingencies both 
at home and abroad.
    Many military specialties, such as pilots, are acutely 
affected, with many set to lose their currency in a matter of 
months. The Army could have to cut 37,000 flying hours from 
aviation training, creating a shortfall of over 500 aviators 
just this year.
    I urge the House Armed Services Committee to pay close 
attention to restoring the Flying Hour Programs to their full 
capacity in fiscal year 2014. Without it, vital national 
security assets like the 101st Airborne will find their 
important mission at risk. More importantly, the lives of the 
soldiers we count on to deploy in our defense will also be put 
at much greater risk.
    One additional program that I would like to highlight for 
the committee is the Troops to Teachers program. Given that the 
current unemployment rate for veterans is a staggering 10 
percent, it is important that we help our troops exiting the 
military transition to a new career. Becoming a teacher is the 
perfect outlet for many of our veterans who are looking to 
continue their service. The program is currently underutilized 
in the Fort Campbell area, despite the large presence of 
veterans in the communities. I urge the committee to provide a 
thoughtful review of the program and look for ways to enhance 
it through innovative changes so that institutions of higher 
education can work more closely with members of the armed 
services.
    I thank you for your time, and I yield back.
    [The prepared statement of Mrs. Blackburn can be found in 
the Appendix on page 80.]
    The Chairman. Thank you very much.
    Any questions? Thank you.
    Next will be Mr. Hudson from North Carolina. The gentleman 
is recognized.

 STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Mr. Hudson. Thank you, Mr. Chairman.
    Chairman McKeon, and Ranking Member Smith, I want to thank 
you and this committee for the opportunity to share with you 
some of the national security priorities I hold for the 
upcoming year on behalf of the Eighth District of North 
Carolina.
    As I have traveled around communities in North Carolina, 
people have consistently told me that restoring fiscal 
responsibility is their number one priority, and that they sent 
me to Washington to help force the government to live within 
its means. Accordingly, I am committed to cutting spending, 
reducing the size of government, promoting economic growth, and 
putting our budget on a path to balance.
    Today I would like to discuss a number of issues; namely, 
the challenges that we face, along with our allies and 
partners; the commitments we have made to our men and women in 
uniform; and the importance of ensuring accountability and 
transparency when trying to maintain a strong national defense 
in a tough budget environment.
    The past decade has taught us that many of the threats we 
face no longer come from traditional nations, but rather from 
determined groups of extremists who seek to wreak havoc on the 
American dream. While the war on terror is an ongoing battle 
against evil, in most cases states continue to pose the 
greatest threat to our national security, whether through the 
sponsor of terrorist groups or outright provocation. A failure 
to exercise U.S. diplomatic and military leadership means 
nuclear states like Iran and North Korea will be able to bully 
the entire international system.
    North Carolina is fortunate to be home to over 700,000 
proud veterans, and I am lucky to represent a district that has 
a strong military presence, given its proximity to Fort Bragg. 
I just returned from a terrific visit to Fort Bragg and am 
proud to report that some of the finest Americans are working 
there on behalf of this great Nation. The men and women of Fort 
Bragg have very unique capabilities and a very unique mission.
    I look forward to working with this committee on behalf of 
Fort Bragg to make sure their priorities are understood and 
met. Among these are a number of new centers, including a 
skills sustainment course building for the Joint Special 
Operations Medical Training Center, an engineer training 
facility for the 1st Special Warfare Training Group, a language 
and cultural center for the John F. Kennedy Special Warfare 
Center and School.
    As the United States increases its Special Operations and 
airborne operations presence, it is critically important that 
we support in-depth training and techniques, an area where Fort 
Bragg continues to excel. I look forward to working with you 
and this committee to provide the necessary resources to ensure 
the utmost success for our dedicated men and women in uniform 
serving at Fort Bragg and around the world.
    America has made promises to the men and women who have 
made countless sacrifices for this Nation, and we must 
guarantee these promises are kept. As chairman of the 
Subcommittee on Transportation Security, I have worked for and 
support the TSA's [Transportation Security Administration] 
decision to offer less-invasive screening for members of the 
military who have sustained severe combat-related injuries.
    Finally, I would like to discuss the defense budget. I 
recognize the difficult challenges facing this committee in 
balancing the important needs of our Defense Department with 
diminishing resources. In tough economic times it is critical 
that we hold every Federal agency accountable for taxpayer 
dollars, and the Department of Defense is no exception.
    I applaud the work of my colleagues, Congressman Mike 
Conaway and Congressman Rob Andrews, who have long urged DOD to 
make financial management a priority within the Department. We 
can all agree that DOD must make certain every dollar is 
accounted for and used to its fullest potential.
    With that said, it is important to remember that defense 
spending represents approximately 19 percent of the Federal 
budget, yet has to absorb nearly half the spending reductions 
occurring in the past 2 years. We must always ensure that our 
military's readiness is not compromised by an inability in 
Washington to properly set spending priorities.
    Thank you to the committee for the opportunity to speak to 
you today and for your efforts on behalf of our Nation's 
warfighters and their families.
    I yield back my time, Mr. Chairman.
    [The prepared statement of Mr. Hudson can be found in the 
Appendix on page 153.]
    The Chairman. Thank you very much.
    Are there any questions of the gentleman?
    Thank you.
    Mr. Pierluisi from Puerto Rico.

  STATEMENT OF HON. PEDRO R. PIERLUISI, RESIDENT COMMISSIONER 
                        FROM PUERTO RICO

    Mr. Pierluisi. Thank you, Mr. Chairman and Ranking Member, 
for the opportunity to summarize my requests.
    First, the Corps of Engineers is cleaning limited areas of 
Culebra, Puerto Rico, a former training range under the FUDS 
[Formerly Used Defense Sites] program. However, the Army argues 
that a 1974 law prohibits the Federal cleanup of a 400-acre 
parcel that was part of the bombardment zone. This parcel is 
the only former defense site in the Nation the Federal 
Government says it is not authorized to clean.
    The committee has recognized that this state of affairs is 
dangerous, since the parcel includes beaches, walkways, and 
campgrounds. In the 2010 bill, the House repealed the relevant 
provision in the 1974 law to authorize cleanup of the parcel, 
but receded in conference.
    In the 2011 bill, Congress required a study on the amount 
of unexploded ordnance within the parcel, the risk it poses, 
and the cost of removal. DOD completed the study after this 
committee marked up the 2012 NDAA. To preserve the issue for 
conference, I offered a successful floor amendment expressing 
the sense of the House that if this parcel could be cleaned at 
reasonable cost, the 1974 law should be relaxed or repealed. 
Again, the Senate failed to act.
    This March, the consequences of the Senate's inaction 
became terribly clear. A young girl visiting a Culebra beach 
suffered burns and was hospitalized after she picked up a 
munition containing white phosphorous. Officials responding to 
the scene found additional UXO [unexploded ordnance], including 
naval gun rounds that were detonated by the FBI [Federal Bureau 
of Investigation]. This incident highlights the need for 
congressional action. So I ask the committee to again include 
language to relax or repeal the 1974 law and to defend this 
provision in conference.
    My second request concerns the 156 Airlift Wing of the 
Puerto Rico Air National Guard. The 156th has had the highest 
operational tempo of any C-130 unit in the Guard, conducting 
ISR [intelligence, surveillance, and reconnaissance] and other 
missions in AFRICOM [Africa Command], CENTCOM, and SOUTHCOM 
[Southern Command], and fulfilling its commitments under 
Operation Coronet Oak, all while flying the oldest C-130s in 
the inventory.
    The unit has unmatched operational experience in its AOR 
[area of responsibility], is strategically located, and is 
fully bilingual, yet its future is uncertain. The unit has 
three C-130Es that are scheduled to be retired this year, and 
recently received WC-130s, which are not combat-coded. I 
understand these planes are intended to be a stopgap measure 
until the unit is provided with newer H or J models that are 
fully mission capable; however, when I ask about the delivery 
date of the new planes, no clear response is provided.
    There are multiple options that would be good for the unit 
and good for our national security. Allowing the unit's flying 
mission to lapse would be a strategic mistake and is 
inconsistent with repeated assurances I have been given by 
defense officials, including the Secretary of the Air Force. 
Therefore, I ask the committee to address this matter in its 
report.
    My final request concerns counterdrug activities. The 
murder rate in Puerto Rico is far higher than any State, and 
most murders are linked to the drug trade. The Coast Guard 
seized or disrupted over 17,000 pounds of drugs around Puerto 
Rico in 2012, an 800 percent increase over the previous year. 
DEA [Drug Enforcement Agency] seizures rose nearly 100 percent. 
CBP [Customs and Border Protection] seized more drugs in Puerto 
Rico than along the Mexico-New Mexico border. Meanwhile the 
price of drugs in Puerto Rico has decreased. This is a problem 
of national scope because most of the drugs that enter Puerto 
Rico are transported to the U.S. mainland.
    The commanders of NORTHCOM [Northern Command] and SOUTHCOM 
recently testified that this is a matter of great concern to 
them. I ask this committee to direct DOD to report on its 
activities to support counterdrug operations in and around 
Puerto Rico, and I hope you will work with me to ensure that 
DOD enhances its role as appropriate.
    Thank you. I yield back.
    [The prepared statement of Mr. Pierluisi can be found in 
the Appendix on page 170.]
    The Chairman. Thank you very much.
    The gentleman's time has expired. Are there any questions 
of the gentleman?
    Thank you very much.
    Next is Mr. Heck from Washington. The gentleman is 
recognized.

 STATEMENT OF HON. DENNY HECK, A REPRESENTATIVE FROM WASHINGTON

    Dr. Heck. Thank you, Mr. Chairman and Ranking Member Smith. 
I appreciate the opportunity to testify before you today.
    I have the great privilege to represent the congressional 
district that contains Joint Base Lewis-McChord, the third 
largest military installation in America. Thousands of families 
in my district are connected to this joint base in some way. 
They are the families of Active service duty members, 
reservists, civilian workers, veterans, and more. In the past 
few months, many of these families have begun to feel the 
negative effects of the decisions the Department of Defense has 
had to make as a result of the sequestration cuts.
    I want to read you just part of a letter I received from 
one of the members of one of these families. It comes from a 
woman named Lacey, who lives in Olympia, the same city as I do. 
Lacey's husband is stationed at JBLM [Joint Base Lewis-
McChord]. He has been deployed multiple time overseas in the 
last decade. Lacey and her husband have two young sons, ages 3 
and 1.
    She writes: ``Our lives together have held surprises, both 
good and bad, thanks to my husband's military commitment. But I 
support my husband in his service. I know that for the bad days 
at `the office' that he has far more good days. He truly enjoys 
his job. My husband was put on orders to come here to Fort 
Lewis, and we were told that this particular assignment, though 
chaotic, would result in more time home for him. More time with 
our young boys. . . .
    ``The first portion of my husband's assignment was 
wonderful. He was home for dinner. We could actually eat a 
family meal, for the first time since we have had children, I 
might add. He was able to actually do the whole bedtime routine 
for our older son instead of barely skidding in the door to 
read him part of the story and put him to bed. My sons 
blossomed with this extra time with their father. . . .
    ``In the few short weeks that these sequester cuts have 
been coming downhill, I can tell you that there has been a 
significant and miserable change in my children. Both of them 
have become moody and angry. . . . My husband wakes up at 5 
a.m. and isn't getting back home from work until 6 p.m. on a 
good day. Many days he is barely getting through the door at 
7:30 p.m. at night, and that is with leaving tasks incomplete 
at his desk. We have barely 2 hours together before he is 
falling asleep, exhausted, on the couch. While I cook a meager 
dinner, he works on his graduate course (he just started that 
program in January).
    ``I know my husband is a hardworking man. I have supported 
him through two Iraq tours, two assignments in Africa, and an 
assignment in a former Soviet territory. I have brought two 
children into this world with him. I have moved completely 
across the country with him, and I am putting my graduate 
degree and career on hold in order to support him and raise our 
children until they are of school age.
    ``I know what kind of hours he works when he is deployed; 
it is the same daily hours as he is working now. My job, as I 
see it, is to hold this family together, to make sure that my 
children are connected to their dad. But how can I keep them 
connected to a husk of a person? The schedule, this pace, will 
turn my husband into a shell of himself.''
    Mr. Chairman, often this town gets lost in the numbers, and 
the percentages and the statistics that go into our Federal 
budgeting process. We lose focus on the fact that the decisions 
we make impact real families in real ways. These are real 
people out there, who have to deal with the consequences of 
Congress' action or our inaction, as the case may be.
    I know this committee does not have jurisdiction on this 
issue. I can guarantee you, however, that sequestration has 
affected the district of each and every member of this 
committee. Congress and we can still get this right. We can 
stop the unnecessary hardships that Lacey talks about in her 
letter. We just need to muster the will to act, and I hope, for 
the sake of our military families around the country, including 
those like Lacey's, that we will.
    Thank you, sir, very much.
    [The prepared statement of Mr. Heck can be found in the 
Appendix on page 151.]
    The Chairman. Thank you.
    Are there any questions of the gentleman?
    Thank you.
    Mr. Kildee. The gentleman is recognized.

   STATEMENT OF HON. DANIEL T. KILDEE, A REPRESENTATIVE FROM 
                            MICHIGAN

    Mr. Kildee. Thank you, Chairman McKeon, Ranking Member 
Smith, and distinguished members of the committee, for holding 
today's hearing and allowing me the opportunity to share some 
of the defense priorities I hope you will consider in preparing 
the fiscal year 2014 National Defense Authorization Act. 
Although I do not serve on the Armed Services Committee, all 
Members of Congress have a responsibility to protect our 
Nation, and your gracious invitation reflects that. It is an 
honor to be here.
    I respectfully ask that you fully fund the National Guard 
to enable it to continue to play a critical role as a member of 
the total force. The National Guard provides a significant 
portion of the Active Duty services' capabilities. Since 
September 11, 2001, individual National Guard members have 
mobilized over 750,000 times in support of overseas operations, 
including over 17,000 individual deployments from my home State 
of Michigan.
    The Air National Guard supplies 35 percent of the Air Force 
capability at a fraction of the Active Duty Air Force's budget. 
Moreover, the Army National Guard provides 32 percent of the 
total Army force, again, with a significantly smaller portion 
of the Active Duty components' budget.
    In addition to providing the military combatant commanders 
with fully deployable capability, the National Guard continues 
to fulfill its critical State mission. Last year, the National 
Guard responded to over 100 national disasters, including 
deploying 12,000 personnel to assist with the Hurricane Sandy 
relief efforts. Further, the National Guard, particularly in my 
home State of Michigan, has started to take a leading role in 
strengthening our cybersecurity at both the State and national 
levels.
    Finally, the National Guard members serve as military 
ambassadors in our communities. As less than 1 percent of the 
population has served in the military, many citizens' largest 
connection to our service members and their sacrifices is via 
the citizen soldiers of the National Guard.
    For these reasons fully funding and supporting the National 
Guard is both sound fiscal and defense policy.
    I also ask that the committee consider some additional 
priorities particularly relevant to individual service members. 
A smart and well-educated military is a more effective and 
adaptable force. Thus, I ask that you fully fund the Military 
Tuition Assistance Program. This program enables service 
members to pursue educational opportunities while serving. 
Members of the military use this critical program to advance 
their military careers as well as prepare for their transition 
back to civilian life.
    Further, to address the significant veterans' unemployment 
rate, the Department of Defense must improve the assistance it 
provides to service members as they transition from the 
military. Improving opportunities to transfer military 
credentials and training to the civilian sphere, job training 
and assistance, and implementing programs to ensure that 
service members are aware of the support and benefits available 
to them would all be positive steps.
    Moreover, as the committee is well aware, military suicide 
and mental health issues are major problems facing service 
members and recent veterans. I ask that you continue to explore 
ways to address these issues and increase funding for programs 
that will help treat and identify mental illness. In this area 
in particular, our service members deserve our Nation's best.
    And finally, please continue to support programs that seek 
to prevent sexual assault in the military. Sexual assault is 
becoming a significant concern in the armed services, and our 
service members deserve the opportunity to serve their country 
honorably and in an environment free of this type of 
mistreatment.
    Thank you again, Mr. Chairman, for this wonderful 
opportunity to testify before the committee.
    [The prepared statement of Mr. Kildee can be found in the 
Appendix on page 156.]
    The Chairman. Thank you very much.
    Any questions of the gentleman?
    Thank you.
    Mr. Broun from Georgia. The gentleman is recognized.

 STATEMENT OF HON. PAUL C. BROUN, A REPRESENTATIVE FROM GEORGIA

    Dr. Broun. Thank you, Mr. Chairman.
    Chairman McKeon, Ranking Member Smith, members of the 
committee, thank you for the opportunity to testify before you 
today.
    There are two issues which I would like to briefly discuss 
before the committee. The first relates to the continued 
controversy over the U.S. Government's ability to indefinitely 
detain, without trial, U.S. citizens who are accused of 
terrorism or collaboration with terrorist groups. The second 
issue is related to the first, regarding the government's use 
of unmanned aerial vehicles, UAVs or drones, to kill suspected 
terrorists either in the U.S. or overseas.
    These issues are related insofar as they both raise the 
question of how, under the Constitution, suspected terrorists 
ought to be treated, particularly those who are U.S. citizens. 
While past versions of the National Defense Authorization Act, 
the NDAA, have attempted to shed light on this question, it 
seems that there remains significant doubt over what the legal 
process should be when suspected terrorists are identified by 
our government.
    Central to this debate is the Authorization for Use of 
Military Force in Afghanistan, AUMF, giving the U.S. Government 
the authority to indefinitely detain individuals suspected of 
terrorism. The AUMF became law in 2001 and was upheld by the 
U.S. Supreme Court in 2004 in Hamdi v. Rumsfeld. While both the 
2012 and 2013 NDAA bills stated nothing in the underlying bills 
gives the U.S. Government the authority to detain U.S. citizens 
suspected of terrorism without due process, neither bill 
included language to repeal the authority granted under the 
AUMF.
    This apparent disparity has resulted in widespread concern 
about whether the U.S. Government may, in fact, indefinitely 
detain U.S. citizens accused of terrorism. If the government 
does have this power under the law, it is unclear under what 
circumstances it may use this potentially sweeping power 
against its own people.
    Last year I supported an amendment to the NDAA offered by 
Ranking Member Smith which would have ensured that individuals 
arrested on U.S. soil under either the AUMF or the fiscal year 
2013 NDAA would be provided with due process as guaranteed by 
our Constitution. Unfortunately, this amendment did not pass 
the House and was not included in the final bill language. I 
urge the committee to include similar language in the fiscal 
year 2014 NDAA so that individuals who are accused of terrorism 
are afforded their right to a fair trial and due process, 
either via the criminal justice system or the military court 
system, depending on the situation and the citizenship of the 
accused.
    Moreover, I urge the committee to work toward protecting 
the definition of ``enemy combatant,'' a broad designation 
which lacks a clear meaning and may be placed on individuals 
under the AUMF in order to allow for their indefinite 
detention. Allowing any administration to use such a vague 
designation to punish individuals without due process opens the 
door to exceedingly dangerous scenarios, including classifying 
dissenters as potential terrorists who may be punished without 
regard to their constitutional rights.
    At the same time I am very concerned about the white paper 
recently released by the Justice Department, which outlines the 
legal framework for the use of deadly force against American 
citizens. While this document purportedly relates only to 
individuals who are suspected of working as forces of Al Qaeda, 
I believe that it is highly dangerous nonetheless. Most 
significantly, it is unconscionable for the U.S. Government to 
kill any of its own citizens without first allowing them due 
process and their day in court. As with the designation of 
enemy combatants, I believe that no administration has the 
right to be judge, jury, and executioner of American citizens. 
Our country was founded under the notion that citizens must be 
protected from this type of tyrannical overreach, and even in 
these times marred by terrorist threats, it is imperative that 
we stay true to that important principle.
    The Chairman. The gentleman's time expired, but we will 
include your whole testimony in the record.
    Dr. Broun. Thank you, Mr. Chairman.
    I ask the committee to do all it can do to ensure that 
Americans' God-given, constitutionally protected rights are 
defended as it begins this important legislation.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Broun can be found in the 
Appendix on page 105.]
    The Chairman. Thank you very much.
    Any questions of the gentleman?
    Thank you.
    Dr. Broun. Thank you, Mr. Chairman.
    The Chairman. Mr. Fattah from Pennsylvania. It was Ms. 
Lee's turn, but she is not here. So Mr. Fattah. The gentleman 
is recognized.

     STATEMENT OF HON. CHAKA FATTAH, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Fattah. Thank you, Mr. Chairman. And thank you to our 
ranking member. I have submitted testimony for the record, but 
I wanted to come and make this case personally. And I thank you 
for the opportunity.
    The Chairman. Your testimony that you submitted will be 
included.
    Mr. Fattah. Thank you, Mr. Chairman.
    Since the First Tee was born in 1997, it has worked to help 
over 7.5 million young people in terms of character development 
and perseverance through teaching the skills of golf.
    In 2008, because of the work of both the chairman, 
Congressman Clyburn, myself, others, there was a $3 million 
Department of Defense grant that allowed First Tee to operate 
on all of our military bases. So it is now in 50 States. It is 
all across the world on our military bases so that the children 
of our service men and women can take advantage of this great 
program.
    Now, as the Federal dollars are coming to a conclusion, 
First Tee has raised private dollars. And like the Boys and 
Girls Clubs, like other programs on our bases, these are 
critically important programs to really provide real help to 
young people there and skills that they will need to go 
forward.
    And so I know that the committee has heard a lot of 
testimony on Member's Day about a lot of important issues. And, 
Chairman, I know about your great work and concern for our 
national defense. I remember fondly our traveling to the 
International Atomic Energy Agency to learn more details about 
the Iranian weapons development program. This is not as weighty 
an issue as you are going to deal with.
    What I am asking is that even though it will no longer be 
federally funded--and it doesn't need Federal funding. Joe 
Barrow and his board, they have done a tremendous job in 
raising money. I am going to be joining former President Bush 
in Philadelphia at the U.S. Open. We are doing a little event 
for First Tee there. And they have done the work to raise the 
money. We want to make sure that they can continue to provide 
this service on all of our military bases, both domestically 
and internationally.
    And I thank the committee for allowing me an opportunity to 
make my point.
    [The prepared statement of Mr. Fattah can be found in the 
Appendix on page 53.]
    The Chairman. Thank you very much. I am glad you didn't 
mention any of my scores.
    Any questions of the gentleman?
    Thank you. And it is great to see a program that starts out 
using Federal funding, weans itself from the Federal funding, 
and is able to move forward in the private sector. They have 
been a fantastic program.
    Mr. Fattah. It is an extraordinary program and widely 
successful in 5,300 elementary schools this year. And when they 
make this announcement to double their efforts, they are going 
to be in 11,000 elementary schools. We want them in all our 
Boys and Girls Clubs. It is just a great program.
    Thank you for your time, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Roskam. The gentleman is recognized.

   STATEMENT OF HON. PETER J. ROSKAM, A REPRESENTATIVE FROM 
                            ILLINOIS

    Mr. Roskam. Thank you, Mr. Chairman and Ranking Member 
Smith. I am here to congratulate and thank the committee for 
your past support for the U.S.-Israeli missile defense 
cooperation and to urge your consideration of that continued 
support.
    There are four programs that I know are well known to this 
committee, but are certainly in need of highlighting, 
particularly in the season of incredible challenge that we are 
facing. Those programs are Iron Dome, David's Sling, Arrow, and 
Arrow 3. Two of them, Mr. Chairman, as you know, are already 
deployed, that is Iron Dome and Arrow, and two of them are in 
development.
    I know many of us in Congress have visited the city of 
Sderot on the Gaza border, and we have interacted--I know I 
have--firsthand with the men and women and families who are 
there. A particular conversation when I was there made an 
impression on me. A mother described the challenge of having a 
15-second lead time when an alert goes that an incoming missile 
is coming from Gaza. And you can imagine now the success and 
transformation that has happened through this joint effort 
between the U.S. and Israel, and it has had an 85 percent 
success rate in knocking down hundreds of missiles. This is 
exactly the type of thing that I think the United States should 
be involved in.
    It is a joint effort. All of these programs are a joint 
effort between the U.S. and Israel. It is an opportunity for us 
to share in technology; share in, essentially, the fruits of 
this product. And it continues to enhance our relationship with 
one of our key allies in the world and certainly our best 
friend in the Middle East.
    So, Mr. Chairman, I know that these programs--and along 
with the ranking member--have no better friend than this 
committee. I am here to cheer you on and urge your 
consideration and advocacy. And if I can help in my role, I am 
happy to do that. And I appreciate the chance to testify today.
    [The prepared statement of Mr. Roskam can be found in the 
Appendix on page 100.]
    The Chairman. Thank you very much. We appreciate your 
efforts in this area. I was talking to the ambassador, 
Ambassador Oren, maybe, oh, it has been a month or two ago, and 
had just had a series of attacks over the weekend, and Iron 
Dome at that point was 95 percent effective. No loss of life. 
And it probably kept us from having a much bigger war, because 
if they had lost lives, they probably would have gone to war.
    Mr. Roskam. We in the whip's office had a meeting yesterday 
with the ambassador, had 30 members in, and it was a continuous 
conversation about that exact issue. He was deeply grateful for 
the U.S. participation. And it is an incredible win for the 
U.S. as well.
    The Chairman. Sure is. Thank you very much.
    Mr. Roskam. Thank you.
    The Chairman. Any questions of the gentleman?
    Thank you.
    Mr. Roskam. Thank you.
    The Chairman. Mr. Hanna.

 STATEMENT OF HON. RICHARD L. HANNA, A REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Hanna. Thank you, Chairman McKeon, Ranking Member 
Smith, members of the committee, for this opportunity and for 
your bipartisan support of our Armed Forces. I come before you 
today to formally request the committee's support for programs 
of monumental value to our Nation's modern defense capabilities 
as you prepare for your 2014 National Defense Authorization 
Act.
    Specifically, I request that the committee support the 
President's fiscal year 2014 budget request for the Air Force's 
Dominant Information Sciences and Methods program and the Air 
Force's Battleship Knowledge Development and Demonstration 
program. These programs fulfill an essential mission that is 
critical to our Nation's defense and our information 
management. The work completed by this funding is vital to the 
development and maintaining of our defensive and offensive 
cyber capacities. Adequate funding of these programs is 
essential if we are to preserve our secure networks and the 
technologies that will allow us to deter enemy attacks against 
our systems.
    Equally important, these programs provide critical services 
for our advanced communications, battleship and command 
control, and intelligence exploitation abilities. As our 
services work to become more efficient and unified, these 
assets are central to the establishment of joint operations. I 
believe the funding levels laid out by the President's budget 
request acknowledge the critical nature of these important 
programs.
    The technologies that are developed and demonstrated 
through these fundings are essential to our continued 21st 
century national defense priorities. Their importance is 
clearly recognized by those who utilize the technologies and 
practices developed under these programs, including services of 
the Defense Department, the Intelligence Community, and other 
Federal agencies.
    Therefore, I would like to formally ask my colleagues on 
this committee to maintain the President's recommended funding 
levels for both of these programs within the fiscal year 2014 
National Defense Authorization Act. And I thank you for your 
time today.
    [The prepared statement of Mr. Hanna can be found in the 
Appendix on page 132.]
    The Chairman. Thank you very much.
    Are there any questions of the gentleman?
    Thank you.
    Mr. Hanna. Thank you.
    The Chairman. Mr. Barr.
    Mr. Barr. Thank you, Chairman.
    The Chairman. Gentleman is recognized.

STATEMENT OF HON. GARLAND ``ANDY'' BARR, A REPRESENTATIVE FROM 
                            KENTUCKY

    Mr. Barr. Thank you, Chairman McKeon, for providing me the 
opportunity to speak before the House Armed Services Committee 
today. I come before you in support of our Active, Guard, and 
Reserve Components, as well as our veterans, to ensure they 
receive the needed equipment and support they deserve.
    Today I want to particularly focus on the National Guard, 
which faces mounting challenges regarding how to replace 
equipment that is obsolete and worn out through normal wear and 
tear, as well as strengthening family readiness programs. I 
stand beside the Commonwealth of Kentucky's Adjutant General, 
Major General Edward Tonini, in requesting that we fully fund 
the fiscal year 2014 National Guard and Reserve Equipment 
Account request in order to remain mission capable and a 
valuable asset toward maintaining our national defense.
    I know that appropriations are not within this committee's 
jurisdiction, but I do want to commend Chairman McKeon for his 
persistent and strong efforts when it comes to advocating for 
our military to have the funding resources it needs to do its 
job and maintain readiness.
    I also would like to address the alarming increase in 
suicides, which, as you know, are quickly becoming an epidemic 
throughout the U.S. military and among veterans. The VA 
[Veterans' Administration] reports that 22 veterans take their 
lives every day. On-site access to mental health professionals 
has proven successful in overcoming time, geographical, and 
stigma barriers that have saved countless lives. I ask that 
this committee work to strengthen programs that will aid in 
stabilizing our service men and women's mental health.
    Separately, a number of concerns have been brought to my 
attention regarding the Blue Grass Chemical Activity which is 
taking place at the Blue Grass Army Depot, located in Richmond, 
Kentucky. As you know, the United States is legally obligated 
to ensure the destruction of all chemical weapons under the 
Convention on the Prohibition of the Development, Production, 
Stockpiling and Use of Chemical Weapons and on their 
Destruction Treaty. Many are concerned that the Blue Grass 
Chemical Activity at the Blue Grass Army Depot is not receiving 
the resources needed to complete the chemical demilitarization 
operations.
    A major source of funding for BGCA [Blue Grass Chemical 
Activity] is Operation and Maintenance, Army [OMA) funding. OMA 
funds have been reduced from $23 million to $18 million. This 
cut in funding comes at a very critical time, in addition to 
hiring freezes, furloughs, and a reduction of force that have 
taken place at the depot. Due to these cuts, BGCA will be 
challenged to continue supporting vital chemical 
demilitarization operations obligations demanded by the CWC 
[Chemical Weapons Convention] Treaty, and so I hope to work 
further with the committee to address these concerns and 
provide the necessary response.
    Further, I would like to personally thank Chairman McKeon 
and this committee for your leadership and strong support for 
increasing public-private partnerships at arsenals and depots. 
As someone who recognizes that public-private partnerships can 
play an important role in bringing long-term stability and jobs 
to communities, I certainly encourage this committee to 
continue to take an active role in this area.
    By providing increased opportunities for additional 
business not limited to the defense industry to locate or 
relocate two depots, it would not only increase revenue to the 
Army Working Capital Fund, but also allow for additional jobs 
to the people of the community. I look forward to working with 
this committee, the DOD, and the BGAD [Blue Grass Army Depot] 
in my district in order to help the depot reach its fullest 
potential.
    I yield back. Thank you.
    [The prepared statement of Mr. Barr can be found in the 
Appendix on page 137.]
    The Chairman. Thank you very much.
    Any questions of the gentleman?
    Thank you.
    Mr. Barr. Thank you.
    The Chairman. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    The Chairman. Gentleman is recognized.

   STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE FROM ALASKA

    Mr. Young. Thank the committee. Thank you for holding this 
hearing.
    As you know, Mr. Chairman, Alaska is a proud State and has 
a proud military State. Not only is Alaska home to the largest 
per capita population of veterans in the country, it is also 
home to a significant force structure for both the Air Force 
and the Army. Since I have numerous issues to discuss today, I 
will keep my remarks brief on each issue. My staff will be 
happy to follow up and provide additional information on any of 
these issues.
    First, I would like to ask the committee to consider 
including language for two reports on the possibility of co-
locating both defense-related and other Federal government 
tenants on large military installations in the Asian-Pacific 
region. These reports, which would be completed by the 
Department of Defense and Government Accountability Office, 
would go a long way to finding efficiencies that will help us 
complete our strategic shift to the Pacific.
    Second, I would like to ask the committee to broadly 
consider the amazing training opportunities in Alaska in JBER 
[Joint Base Elmendorf-Richardson]. Specifically, as the 
President begins to ask for more funding for training ranges, I 
would like to encourage the committee to find ways to apply 
those resources to ranges of the future, like JBER. Along these 
lines, I would also like the committee to consider working with 
the Army to pre-position mobility and instrumented land warfare 
equipment at bases like Fort Wainwright for force-on-force 
training. The U.S. is an Arctic nation. As other countries in 
which we have conducted combat operations in our history, we 
must be able to project power into the Arctic environment, and 
extreme Arctic training is needed to do that. Mr. Chairman, I 
would like to suggest respectfully, as Billy Mitchell said, he 
who controls Alaska controls the military of the world.
    Third, I would like to request the committee include 
language for the report to analyze the capacity of the Northern 
and Southern Pacific air bridges. This report would ask the 
Secretary of the Air Force to provide information on the 
benefits of adding additional manpower and/or aircraft to these 
air bridges. These bridges are the logistic keys to power-
projection and rapid-response capabilities of the Pacific.
    Finally, I would like to draw my committee's attention to 
four remaining issues.
    One, given the ongoing drawdown of the C-23, I ask the 
committee to work on a specific solution for Alaska's Sherpa 
fleet. These aircraft can land on many of Alaska's short rural 
runways and a capability cannot be filled with any other 
aircraft.
    Two, when working with the Air Force on OCONUS [outside the 
contiguous United States] basing review of the F-35A, please 
consider Alaska's unique and highly strategic location. I have 
included a chart in my testimony that demonstrates a unique 
position in the world.
    Three, as the committee works with the Army on basing the 
Gray Eagle, consider interior Alaska. Interior Alaska has a 
huge amount of airspace that could be ideal for the Gray Eagle.
    Four, I would like to invite all members of the committee 
to Alaska. We have a lot of amazing force structure and are 
quite proud of it. Specifically, though, one area I would like 
to encourage you to visit is the IED [improvised explosive 
device] training lane at JBER. This lane is a model of IDA 
training on which the rest of the Department of Defense does 
its training.
    Again, I would like to thank you, Mr. Chairman, the ranking 
member, the committee members who listen to my testimony. 
Again, come to Alaska, see what we can do militarily, and see 
how we can accomplish the mission for the rest of the military 
and this Nation defending our shores.
    [The prepared statement of Mr. Young can be found in the 
Appendix on page 45.]
    The Chairman. Thank the gentleman.
    Are there any questions?
    Mr. Young. Oh, come on. There has got to be a question 
somewhere.
    The Chairman. Thank you.
    Mr. Young. You are quite welcome, Mr. Chairman.
    The Chairman. You did such a great job of selling Alaska.
    Mr. Crawford. Gentleman is recognized.

 STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE 
                         FROM ARKANSAS

    Mr. Crawford. Thank you, Mr. Chairman. And thank you, 
Ranking Member Smith and distinguished members of the 
committee. Thank you for the work you do to preserve the 
security of our great Nation and for allowing me to testify 
before the full committee regarding Explosive Ordnance Disposal 
or EOD priorities for fiscal year 2014 National Defense 
Authorization Act.
    I served in the Army as an EOD tech, and proud to be a co-
founder, along with committee member Susan Davis, of the House 
EOD Caucus. EOD soldiers, sailors, airmen, and marines are the 
military's preeminent team of explosive experts. They are 
trained and equipped to identify and neutralize explosive used 
by terrorist networks across the globe. The military's EOD 
mission is to defeat global emerging threats using explosive. 
EOD techs protect their fellow military personnel and innocent 
civilians from these threats while providing support across a 
wide range of military and civilian national security 
operations.
    EOD forces have proven to be game changers in attacking and 
dismantling terrorist cells and associated networks. These 
forces will continue to be indispensable assets for the 
foreseeable future supporting counterterrorism operations, 
building the capacity of partner nations, and protecting the 
homeland through providing support to civilian law enforcement 
agencies at Federal, State, and local levels.
    Thank you for the committee's support of EOD, beginning 
with the fiscal year 2008 NDAA that inquired into the health 
and viability of EOD forces. I am especially appreciative of 
the committee's direction to the Secretary of Defense in the 
last three NDAAs to provide reports to the committee to develop 
a better understanding of the services' plans for EOD force 
structure and funding.
    It is critical that EOD is provided with adequate levels of 
funding for procurement, research, development, tests, 
evaluation, and operations and maintenance to carry out their 
mission. A GAO report from last month concluded that the DOD 
needs better resource planning and joint guidance to manage 
EOD. The report also reveals that the Army and Marine Corps 
still have not established a program element for their 
respective EOD force since the committee's initial inquiry in 
the 2008 NDAA.
    The Boston bombings serve as a stark reminder of the threat 
of the terrorist detonation of explosives in the United States 
and have revealed gaps in the Nation's ability to defeat a 
sustained bombing campaign in the homeland. Following the 
attacks, the Army Forces Command issued guidance that the local 
staff judge advocate must review every civil law authority 
request for emergency EOD response prior to sending aid to 
ensure that the support does not violate the Posse Comitatus 
Act of 1878. In addition, the guidance requires that a general 
officer must then approve each of these EOD immediate responses 
and must ensure that civil authorities will reimburse the Army 
as a condition of immediate response.
    There is an estimated 66,000 call outs annually across the 
United States on explosive ordnance by interagency, military 
EOD, and public safety bomb squads. Army EOD units responding 
under immediate response authority have historically departed 
their home station installation with 30 minutes of notification 
during duty hours and within 60 minutes of notification after 
duty hours, 365 days a year. On these civil support missions, 
EOD has provided support to civil law enforcement authorities, 
but they do not perform law enforcement activities.
    In one of the most significant examples of EOD civil 
support missions, the 387th Ordnance Company from Camp Edwards, 
Massachusetts, responded to 64 call outs during the Boston 
bombing. This support was critical in the aftermath of the 
attack. I understand the need to ensure the EOD is compliant 
with Posse Comitatus Act in any of its civil law enforcement 
authority missions, but it is vital that we do not overcorrect 
for a nonexistent violation and negatively impact the ability 
of our EOD forces to provide increasingly needed and immediate 
support to our civilian law enforcement agencies.
    We must also ensure that our EOD units, like the 387th out 
of Massachusetts, are properly equipped to respond to explosive 
threats in cities and towns throughout the United States. Mine-
Resistant Ambush Protected vehicles, or MRAPS, are critically 
needed vehicles for EOD operations in Afghanistan, but I feel 
that Army National Guard EOD units, comprising one-third of 
Army EOD force, need response vehicles like those used by WMD 
[weapon of mass destruction] civil support teams. These units 
also need portable containment magazines to safely store 
explosives as well as communications capable of integrating 
with civil law enforcement authority that they are supporting. 
These National Guard units should also receive training 
readiness oversight and Active Duty soldier support from 
FORSCOM/20th [United States Army Forces Command] Support 
Command.
    I will leave the remainder of my comments in writing. And I 
appreciate the chairman's permission to testify this morning. 
Yield back.
    [The prepared statement of Mr. Crawford can be found in the 
Appendix on page 121.]
    The Chairman. Gentleman's time expired. But your full 
testimony will be included in the record.
    Mr. Crawford. Thank you.
    The Chairman. Thank you very much for coming.
    Ms. Ros-Lehtinen.

 STATEMENT OF HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE FROM 
                            FLORIDA

    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, 
committee members. Thank you for everything that you do, 
because you all have dedicated your congressional service on 
behalf of our service men and women who bravely protect us. And 
whether it is Active Duty and Reserve and veterans and their 
families. So thank you for your service.
    Those who dedicate their lives to the service of others 
truly embody the heart and spirit of America, and I thank each 
one of you for what you do and for helping all of our brave 
Americans continue in their battle to keep our country free.
    Florida--and I am here with Congressman Bill Posey, my 
colleague--is a very active State in terms of military presence 
and is rated among the States that is most accommodating to 
service men and women, as well as their families. As you craft 
this year's National Defense Authorization Act, I know that you 
will rightfully be focused on the warfighter well-being here at 
home, as well as downrange. Heightened security demands on our 
military installations caused by an increasingly dangerous 
world is of utmost importance to your committee, and many 
installations still suffer from inadequate security measures, 
which is a recipe for disaster.
    And that brings me to why I am here today, Mr. Chairman, 
because the Homestead Air Reserve Base is a perfect example of 
a facility that is in dire need of enhanced security measures. 
The installation has two entry gates to allow traffic in and 
out of the base, but at present one of them has been forced to 
be closed due to terrorism concerns. The remaining gate is 
substandard. You would not believe it if you looked at it. It 
is completely ill-designed to function as a primary entry 
control point. It is a single insufficient guard shack that is 
within close proximity of the base fuel storage compound and is 
only a 30-second drive to the F-16 ramp, which holds $800 
million in F-16 fighter jets.
    So just think about that, Mr. Chairman and members. A 
little guard shack very close to the fuel storage, and then 
just a 30-second drive and you have got access to fighter jets 
worth $800 million. So it fails in every aspect to meet force 
protection standards. And with the current and projected 
mission growth at the Homestead Reserve Base, we know that it 
is a high visibility target for potential attacks.
    And truck inspections is currently being conducted outdoors 
during all weather conditions. And if you have ever been to 
South Florida, you know it is raining half the time. So you 
have got this terrible weather condition, that is the only time 
that they can inspect the trucks, and once again in close 
proximity to the base bulk fuel storage compound. It is 
extremely small, the inspection area, and when the volume of 
traffic is very high, unfortunately, the inspections are not 
done as high as they really should be done. And these service 
men and women are doing the best they can within very difficult 
parameters.
    So we have got traffic backups, we have got terrible 
weather conditions, no space, proximity to high value targets. 
So we have had in many circumstances traffic backed up over a 
mile long during the high volume usage that this facility 
regularly sees. So more often than not, the traffic is backed 
up more than a mile. It is a long procedure. And Homestead Air 
Reserve Base serves 2,700 airmen, soldiers, sailors, marines, 
coastguardmen, Customs and Border Protection agents, and 
Florida National Guardsmen who dedicated their lives, work to 
serving our Nation throughout our country.
    There are projects out there that demand our attention. And 
I know that you are committed, as well as every member here, to 
issues affecting service members. And I hope, Mr. Chairman and 
members, that you take a careful look at the needs of Homestead 
Air Reserve Base and the security concerns that are hampering 
their ability to do as good a job as they want to do. And they 
are doing it to the best of their abilities.
    Thank you, Mr. Chairman, members.
    [The prepared statement of Ms. Ros-Lehtinen can be found in 
the Appendix on page 50.]
    The Chairman. I have a question. You say there are two 
gates, but one is closed.
    Ms. Ros-Lehtinen. Correct.
    The Chairman. Is it a better gate than the guard shack?
    Ms. Ros-Lehtinen. No. It is the same type of problems.
    The Chairman. They are both bad.
    Ms. Ros-Lehtinen. They are both bad. But because of the 
budget constraints they had to choose one, and they chose the 
one where the traffic could be backed up without it being a 
problem for the base. And that is why they chose this one. It 
is two bad options. They chose the one that could be less 
dangerous. And those men and women who patrol those gates, they 
are doing the best they can. We couldn't ask more of them. And 
they do it every day and very professional and courteous. And 
we thank them for their service. We just want to make life a 
little bit better for them so they can do their job in a better 
way.
    Thank you, Mr. Chairman. Thank you, members.
    The Chairman. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, sir.
    The Chairman. Thank you.
    Ms. Lee. Gentlelady is recognized.

STATEMENT OF HON. BARBARA LEE, A REPRESENTATIVE FROM CALIFORNIA

    Ms. Lee. Thank you very much, Mr. Chairman. First, thank 
you for affording me the opportunity to explain my request to 
you to consider including in the fiscal 2014 Defense 
Authorization Act. I want to thank all of the members for this 
chance to be with you today.
    I have a number of recommendations that I will quickly 
address and for which I strongly urge you to look at, support, 
and hopefully include. I have also submitted my full set of 
remarks for the record.
    First, Mr. Chairman----
    The Chairman. Without objection, so ordered.
    Ms. Lee. Thank you very much.
    I am concerned that this bill may not contain language 
prohibiting permanent military bases in Afghanistan. As signed 
into law on numerous occasions by both former President Bush 
and President Obama, Congress has maintained a longstanding 
prohibition on the establishment of permanent military bases in 
Afghanistan. I request you to consider and include in the 2014 
Defense Authorization Act that this be brought clearly in line 
with the ``no permanent bases'' provision which historically 
have been included into the defense authorization and related 
appropriations measures.
    Secondly, it should come as no surprise that I share the 
belief of many in the Congress that there is no military 
solution in Afghanistan. As the daughter of a military veteran, 
I also know firsthand the sacrifices and the commitment 
involved in defending our Nation. Our troops have done 
everything that was asked of them and more. But the truth is 
that their mission in Afghanistan is far past due and we should 
be withdrawing all of our troops and military contractors as 
soon as safely possible.
    In addition to auditing the Pentagon, which I will touch on 
in a few moments, it is important that the Pentagon face the 
same financial constraints that all other government agencies 
are being subjected to. I am deeply concerned that the Pentagon 
is already seeking an exemption from the sequestration cuts 
mandated by Congress as part of the deeply flawed legislation 
that, of course, I could not support last year. I urge the 
committee to consider commonsense defense spending reforms 
outlined by many organizations across the political spectrum. 
With billions each year lost to waste, fraud, and abuse at the 
Pentagon, we need to ask the same of the Department of Defense 
that we ask of other agencies.
    Also, Mr. Chairman, I am deeply concerned to hear about a 
possible expansion of the 2001 authorization to use force. As 
you know, Congress has a solemn constitutional obligation to 
deliberate and authorize all war-making and hostilities abroad. 
If the executive branch is seeking expanded war-making 
authority, let them request it and let us engage in a full and 
transparent debate with the proper committees holding--excuse 
me, proper committee hearings--and also with Members of 
Congress who should be afforded the opportunity to consider the 
full implications of an expanded AUMF. I am as deeply opposed 
to expanding the 2001 AUMF as I was against authorizing the 
original one on September 14th, 2001, when I cast the lone vote 
against it, because I knew then that it was a blank check to 
wage war, that it really did erode our systems of checks and 
balances. We passed that with little debate, and it removed 
Congress from our constitutional responsibility again in 
matters of making war.
    Lastly, on the AUMF issue, in addition to my opposition to 
expanding the 2001 AUMF, now is the right time really to repeal 
this overly broad 2001 AUMF.
    Finally, Mr. Chairman, I ask your committee to consider 
creating financial consequences for the Pentagon unless the 
Defense Department subjects itself to an audit, as it is 
required to do by law and as all other Federal agencies 
regularly do. I urge the committee to take a first step toward 
compelling the Pentagon to act with urgency in assuring fiscal 
responsibility in our defense dollars. As the only Federal 
agency not subject to audit, the Pentagon has lost tens of 
billions of dollars to waste, fraud, and abuse.
    Thank you again for the opportunity to testify. And I 
strongly request you to consider these requested changes to the 
bill.
    [The prepared statement of Ms. Lee can be found in the 
Appendix on page 63.]
    The Chairman. Thank you very much.
    Any questions of the gentlelady?
    Mr. Posey. Gentleman is recognized.

  STATEMENT OF HON. BILL POSEY, A REPRESENTATIVE FROM FLORIDA

    Mr. Posey. Thank you, Mr. Chairman, for the opportunity to 
testify today in advance of the committee's consideration of 
the fiscal year 2014 National Defense Authorization Act. 
National defense is the government's greatest constitutional 
responsibility, and I appreciate the challenges faced by the 
committee, especially after sequestration, with its impact 
falling significantly more on the defense portion as compared 
to all other federal spending.
    In regards to the 2014 NDAA, I have a letter that I am 
submitting with a number of priorities. And I would appreciate 
the committee's attention to those.
    The Chairman. That will be included in the record without 
objection. Thank you.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Posey. Thank you, Mr. Chairman.
    I would like to address my concern about the administration 
letting slip from its budget the important Range Communications 
Building, commonly known down in the Cape as the XY Building, 
at Cape Canaveral Air Force Station. The building must be 
updated for the 21st century. The XY Building is the hub for 
commercial telemetry and radar for Cape Canaveral Air Force 
Station, Kennedy Space Center, Wallops Island, and all 
downrange launch sites. It is indispensable for military and 
NASA [National Aeronautics and Space Administration] launches.
    I have been inside the XY Building and not much has changed 
since the 1970s. Despite its importance for our national 
security, it feels like a museum. The original structure 
predates the Apollo era, and the facility still utilizes vacuum 
tubes. I believe we have Members of Congress who don't know 
what vacuum tubes are, and we are still relying on them to do 
our telemetry down there at the Cape.
    The building is also prone to flooding, which can render it 
unusable. There are other safety concerns with the structure. 
And if anyone thinks I am exaggerating, I would be happy for 
them to tour it with me any time.
    Our national security and our leadership in space depends 
on a capable and functioning XY Building. I am informed the Air 
Force has indicated in previous years that a new facility is a 
very high priority, but in the 2014 President's budget request 
it was not addressed. I understand the Air Force may place a 
request for a new facility in the fiscal year 2015 budget, but 
I have heard some in the Pentagon are looking to put this 
critical project off until 2017 or beyond. I am concerned that 
this can can keep getting kicked down the road. I would ask 
that the committee include report language expressing interest 
in ensuring that a safe, secure, and reliable modern Range 
Communications Building be operational in accordance with the 
needs of the U.S. military and NASA. Such language should 
direct the Air Force to report back to the committee on the 
steps being taken to ensure the facility is properly upgraded. 
It is critical to our national security that it is not being 
unnecessarily delayed in a way that jeopardizes the U.S. space 
launch capabilities.
    There are other defense priorities, Mr. Chairman, which I 
believe merit your attention, and they are included in my 
separate correspondence. I thank you and the members very much 
for your time and the opportunity to make this presentation. 
Yield back. Thank you.
    [The prepared statement of Mr. Posey can be found in the 
Appendix on page 110.]
    The Chairman. All right. Any questions of the gentleman?
    Thank you.
    Ms. Jackson Lee. Gentlelady is recognized.

  STATEMENT OF HON. SHEILA JACKSON LEE, A REPRESENTATIVE FROM 
                             TEXAS

    Ms. Jackson Lee. Mr. Chairman, let me thank you for your 
courtesies and that of this committee. Thank you for allowing 
me to come and make a brief presentation. I want to add my 
public comments again that all of us have mentioned on the 
concern for the incident in Boston, and due to the hearings on 
Benghazi I again add my sympathy to the families who lost loved 
ones serving their country in the Benghazi tragedy.
    I am also one to acknowledge that I come from a State that 
has sent very large numbers, proudly so, of men and women to 
the front line with a number of bases. And in particular I 
guess most recently to Iraq and Afghanistan. And I want to 
thank those men and women over the ages that have served us in 
uniform and those that you care for under this committee.
    I understand that my entire statement will be placed in the 
record, so I will, as I indicated, make these remarks brief on 
the issues that I would like to discuss.
    The Chairman. Without objection, the entire statement will 
be included in the record, thank you.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Authorization of appropriations adequate to fund research 
programs to treat and to prevent breast cancer, especially that 
under-studied strain known as the triple negative breast 
cancer. Authorization of appropriations adequate to fund the 
increasing need for programs, including grant programs, to 
treat and recover from post-traumatic stress disorder. And an 
even stronger commitment to provide and extend to women and 
minority entrepreneurs' business enterprises the opportunity to 
compete for and win procurement contracts for military 
construction projects, overseas contingency operations, and 
other projects.
    Very quickly, on the triple negative breast cancer, this 
disproportionately affects young women of color and others 
under the age of 50. This disease should continue to be of 
special concern to the Department of Defense because a 
significant portion of its personnel is comprised of women and 
women of color under the age of 50. And I am pleased that this 
committee responded to my request, including a provision in 
last year's Defense Authorization bill, that will lead directly 
to improve awareness, early detection, prevention, and 
treatment of breast cancer among Active Duty members of the 
Armed Forces.
    But I am here today to ask you to ensure that the NDAA for 
fiscal year 2014 not only contains the same provision, but also 
utilizes all necessary resources within the Department of 
Defense and the National Institutes of Health to identify 
specific genetic and molecular targets and biomarkers for all 
types of breast cancer, including specifically triple negative 
breast cancer [TNBC]. I think that will give long life to many 
in the United States military who serve this country and who 
have a longer tenure as career officers, and I believe that it 
is crucial. As a survivor myself, I believe that this will not 
only help men and women in the United States military, since we 
realize that breast cancer is not a respecter of gender, but it 
will help expand the research that we have across the Nation.
    I am respectfully asking that fiscal year 2014 authorize 
research funding needed for biomarker selection, drug 
discovery, and clinical trial designs that will lead to the 
early detection of TNBC and to development of multiple-targeted 
therapies to treat this awful disease.
    I also want to add my advocacy for increased opportunities 
for treating post-traumatic stress disorder. The need for 
mental health services for service members and their families 
will continue to grow in coming years as the Nation recovers 
from the effects of more than a decade-plus of military 
conflict. As a Member of Congress from Texas, we have seen, as 
I indicated, a number of our men and women returning from 
Afghanistan and Iraq, and they join others from other wars 
needing urgent services regarding PTSD [post-traumatic stress 
disorder]. And I would hope that that would be one that would 
you be able to provide for, Mr. Chairman.
    In addition----
    The Chairman. Gentlelady's time has expired, but your full 
statement will be included in the record.
    Ms. Jackson Lee. I thank you, Mr. Chairman. As I close, if 
you would consider small businesses for opportunities for 
procurement. Thank you very much.
    [The prepared statement of Ms. Jackson Lee can be found in 
the Appendix on page 54.]
    The Chairman. Thank you very much.
    Are there any questions of the gentlelady.
    Thank you.
    Ms. Jackson Lee. Thank you.
    The Chairman. Mr. DeSantis. Gentleman is recognized.

 STATEMENT OF HON. RON DESANTIS, A REPRESENTATIVE FROM FLORIDA

    Mr. DeSantis. Thank you, Mr. Chairman. Chairman McKeon, 
Ranking Member Smith, members of the committee, thank you for 
having me here to testify. I know this is a particularly busy 
period for the committee, and I appreciate your time.
    I am here to talk about the E-2D Advanced Hawkeye, which, 
as you know, is the Navy's carrier-based Airborne Early Warning 
and Battle Management Command and Control system. Variants of 
this aircraft have been serving our military well since the 
1960s. The most advanced version, the E-2D Advanced Hawkeye, 
has now been cleared for full production. The E-2D is equipped 
with new cutting-edge communication capabilities and radar 
systems. These advancements will enable the E-2D to synthesize 
information from multiple onboard and offboard sensors to 
provide increased missile protection to our carrier defense 
groups while also improving the aircraft's offensive 
capabilities, key capabilities in support of our combatant 
commands.
    The E-2D program has met every major milestone on schedule 
since the program's inception in 2003. As the program moves 
forward, I urge you to support the Navy's multiyear procurement 
of the E-2D in the President's fiscal year 2014 budget. Fiscal 
year 2014 is the first year of a planned 5-year, fixed-price, 
multiyear procurement which would provide the Navy with the 
full complement of 32 E-2D aircraft in the program of record 
over the next 5 years. Multiyear procurement will yield a 10 
percent savings over single or over annual single-year 
contracts, an expected savings of more than $522 million over 
the length of the contract term.
    This is a critical program for the Navy. As my friend and 
committee member Congressman Jim Bridenstine from Oklahoma 
said, ``Given the threats to the strike groups, multiyear 
procurement of E-2D is absolutely necessary. The only question 
is, are we purchasing enough E-2Ds and missile interceptors to 
counter the high volumes of incoming missiles that our sailors 
and soldiers could face?'' End quote.
    Thank you for your consideration of support for the 
multiyear procurement of the E-2D. This procurement method will 
ensure that this vital aircraft is produced in a timely and 
cost-effective way. As an appendix to my written testimony, I 
have attached a letter from May 7th from myself, Congressmen 
Bridenstine, Crenshaw, Mica, Brown, Posey, Rooney, Miller, 
Yoho, and Diaz-Balart to Chairman McKeon and Ranking Member 
Smith in support of this program.
    And I would just also like to encourage the Department of 
Defense to examine the advantages of acquiring simulation 
capability using short-term, fee-for-service contracting, 
thereby rewarding and expanding innovation and commercial off-
the-shelf offerings. Likewise, DOD should encourage common, 
commercially developed, commercially supported R&D [research 
and development] investments by industry. These common 
standards would reduce costs, eliminate duplicative government 
R&D, create a competitive industry base, ensure that simulation 
components can plug and play, regardless of original equipment 
manufacture, and most importantly, eliminate the long 
acquisition cycle.
    Thank you again for having me here today, and thank you for 
what you do to support our warfighters and our military.
    [The prepared statement of Mr. DeSantis can be found in the 
Appendix on page 144.]
    The Chairman. Thank you very much.
    Are there any questions of the gentleman?
    Mr. Bridenstine.
    Mr. Bridenstine. I just wanted to thank you personally for 
your leadership on this issue. As you and I have talked, and 
our staffs have talked, this is an issue that is personally 
important to me as a naval aviator and somebody who has flown 
E-2 Hawkeyes for most of my adult career. Started off flying E-
2Cs. Got many hours in that aircraft. And, of course, the E-2D 
is a platform, while I was on Active Duty, I was responsible 
for designing the requirements for that particular platform.
    I am very glad that the President's budget had multiyear 
procurement for that platform, and I am so glad that you are 
leading the charge to make sure that this stays as it is in the 
NDAA.
    Real quick, if it is okay, would you just share with us 
your philosophy or your thoughts on why this particular 
platform is so important to the future of the United States 
Navy?
    Mr. DeSantis. Absolutely. As a Navy guy, you know that, you 
know, these carrier groups that we have are essentially taking 
American sovereignty and putting them essentially anywhere in 
the blue seas throughout the world. And that is a huge 
capability for us. But because it is a good capability, that is 
obviously a target for our enemies. And so I think, you know, 
with the C [E-2C] that you have the experience in, this 
aircraft has even more capability for detection of threats and 
early warning that is going to be absolutely critical to 
maintaining the safety of our carrier groups, especially in a 
changing environment where we are facing new threats. This is 
the type of platform that can meet that challenge.
    Mr. Bridenstine. Well, I appreciate that. And certainly as 
the threats around the world become more robust, it is 
absolutely critical that we have the ability to intercept those 
threats beyond the horizon, which requires an airborne platform 
capable of delivering what is required to do interdiction and 
interception of those threats. So I appreciate your leadership 
on this issue.
    And, Mr. Chairman, I will yield back.
    The Chairman. Thank you very much. Thank you.
    Mr. DeSantis. Yes, sir.
    The Chairman. Ms. Gabbard. Gentlelady is recognized.

 STATEMENT OF HON. TULSI GABBARD, A REPRESENTATIVE FROM HAWAII

    Ms. Gabbard. Thank you very much, Mr. Chairman, Ranking 
Member Smith, members of the committee. I appreciate the 
opportunity to testify before you today. I echo the words from 
last year's priorities for the 21st century defense strategy. 
We are in a moment of transition. Under your leadership with 
this committee, the United States has made significant progress 
in the drawdown of the costly and protracted wars in the Middle 
East that have consumed the resources and attention of our 
armed services for the previous decade. This is no easy task, 
and your leadership in seeing it through is greatly 
appreciated.
    The priorities for the 21st century defense strategy also 
emphasize the importance to focus on a broader range of 
challenges and opportunities, including the security and 
prosperity of the Asia-Pacific region, which has matured into 
our rebalance strategy. My representation of our constituents 
in Hawaii have placed us strategically and otherwise in the 
middle of this rebalance.
    The regional instability created by the recent North Korean 
provocations, as well as the slow-boiling territorial 
disagreements around the Senkakus and South China Seas 
underscore the growing need to strengthen our Nation's military 
and diplomatic presence in this region where our economic and 
national security interests are inextricably linked; a region 
where our greatest security adversary is not a nation or a 
specific threat but the distance we must overcome to ensure 
open and secure access to the global domains and our national 
security interests.
    Hawaii is a critical link in addressing this challenge. We 
must keep Hawaii safe, and in today's threat environment, this 
translates into ballistic missile defense. With the increased 
operational tempo that our naval forces are experiencing, the 
Pearl Harbor Naval Shipyard and Regional Maintenance Center 
provides full-service support to the surface fleet and the new 
Virginia-class submarines, which cover more than 60 percent of 
the world's surface and are essential to maintaining the robust 
presence called for in our national military strategy.
    As we continue to realign our force posture in the Asia-
Pacific region, it is important that we ensure that we provide 
the very best training facilities enabling combat readiness. 
This additional presence comes on the heels of the Marine 
Corps' decision to base two squadrons of its latest transport 
aircraft, the MV-22 Osprey, and one light attack helicopter 
squadron in my district at Kaneohe Bay.
    The Pacific Missile Range Facility [PMRF] is the world's 
largest multi-environmental range capable of supporting 
surface, subsurface, air, and space operations simultaneously. 
PMRF's work with the Aegis Ashore Missile Defense Test Complex 
is vital to enhancing our Nation's ballistic missile defense 
capabilities and protecting the United States and its 
territories from any future attack.
    In addition, the Pohakuloa Training Area [PTA] serves as 
the premier combined arms training facility for all of the 
Pacific region. Ground and air units from all U.S. military 
services are able to train at PTA because it offers realistic 
training opportunities not found elsewhere and thus vital to 
our Armed Forces' readiness.
    Each of these key enablers is critical to this committee's 
efforts to provide oversight to the ongoing military 
transportation that has already begun taking place. I look 
forward to working with the committee as we continue to build 
on the progress we have already made in executing the U.S. 
rebalance to this vitally important region.
    Thank you very much, Mr. Chairman, Ranking Member Smith, 
for allowing me the opportunity to testify today about Hawaii's 
strategic importance in this process and rebalance. Thank you.
    [The prepared statement of Ms. Gabbard can be found in the 
Appendix on page 149.]
    The Chairman. Thank you.
    Any questions of the gentlelady?
    Thank you very much.
    Ms. Gabbard. Thank you, Mr. Chairman.
    The Chairman. Mr. Sherman. Gentleman is recognized.

     STATEMENT OF HON. BRAD SHERMAN, A REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Sherman. Mr. Chairman, Ranking Member Smith, good to be 
with you. And the chairman asked me to keep it brief; said I 
would have a higher likelihood of success if I do that. I will 
follow that.
    The Chairman. The lengthy one will be included in your 
record.
    Mr. Sherman. I am here in support of inclusion of report 
language requested by Congresswoman Loretta Sanchez, the 
ranking member of the Tactical Air and Land Forces 
Subcommittee, directing the Transportation Command and Air 
Force Mobility Command to develop plans for the manufacture of 
an operational prototype hybrid airship. This would be an 
airship capable of carrying between 60 and 70 tons. The project 
would cost roughly $300 million, spread out over the next 3 
years. Roughly half of that money will come from the private 
sector because this technology has tremendous private sector 
potential as well.
    I am here to testify not only on behalf of myself, but 
Grace Napolitano, Adam Schiff, Dana Rohrabacher, Steve 
Stockman, Judy Chu, and Mike Honda, and some of those Members 
will be submitting statements of their own in support of this 
project.
    A new airship technology has the potential to carry perhaps 
hundreds of tons of material and personnel anywhere on the 
globe at a fraction of the cost per ton-mile of fixed-wing 
aircraft, because you can travel directly to where the cargo is 
needed and land anywhere where there is open space. You can 
provide necessary material and personnel where you need them, 
even if there is no infrastructure. That would be so important 
in Afghanistan, and so important to our humanitarian efforts, 
whether they be after a Pakistani earthquake, an Indian Ocean 
disaster, Haiti, et cetera. As TRANSCOM Commander General 
Fraser told the committee on March 6, ``Hybrid airships 
represent a transformational capacity bridging the longstanding 
gap between high-speed lower capacity airlift and low-speed 
higher capacity sealift.'' Hybrid airship technology, he said, 
has the potential to accomplish ``factory to foxhole'' cargo 
delivery. Airships will also save in fuel costs, 20 cents per 
ton-mile as opposed to the 80 cents per mile for airlift today.
    The advantages, psychological and physical, in humanitarian 
relief, where an enormous airship is able to bring relief to 
the distant village even when the airports and seaports are 
unavailable, offers an opportunity for our foreign policy that 
exceeds any other technology I am aware of.
    The recently completed Pelican Project, an effort of the 
Emerging Capacities Directorate at DOD and Ames NASA, 
demonstrated that it is possible to overcome the previous 
challenges to hybrid airship development. The technology in the 
Pelican allows the airship to take off and land vertically and 
to move and to increase and decrease its altitude in flight 
without losing ballast or releasing helium.
    The Pelican is a demonstrated technology. However, there is 
nothing in the budget right now in order to build on the 
success of the test completed just a few months ago in January. 
The government should move forward with an operational 
prototype. Therefore, I respectfully request that the committee 
include the language requested by Congresswoman Loretta Sanchez 
calling for the development of this prototype. And I would 
welcome your questions.
    [The prepared statement of Mr. Sherman can be found in the 
Appendix on page 60.]
    The Chairman. Thank you very much.
    Any questions of the gentleman?
    Thank you.
    Mr. Sherman. Thank you.
    The Chairman. Mr. Gosar.

 STATEMENT OF HON. PAUL A. GOSAR, A REPRESENTATIVE FROM ARIZONA

    Mr. Gosar. Thank you, Chairman McKeon and Ranking Member 
Smith. I thank you for allowing me to testify before you today. 
I appreciate the fair and open process that is taking place 
here today. I come before you to highlight a serious issue 
facing a group of my constituents.
    By way of background, the Radiation Exposure Compensation 
Act of 1990, or RECA, as it is called, established a trust fund 
to provide a compassionate lump-sum payment to individuals, 
commonly referred to as ``down winders,'' who have contracted 
certain cancers and other serious diseases that are presumed to 
be the result of their exposure to ionizing radiation from 
above-ground nuclear weapons testing or from various activities 
in connection with uranium mining.
    Though the testing in question was performed in Nevada, 
radioactive elements affected people in Utah and Arizona as 
well. The original language in the 1990 RECA used a broad 
definition of the affected areas in Arizona. The language reads 
``that part of Arizona that is north of the Grand Canyon and 
west of the Colorado River.'' That definition, therefore, 
included northern Mojave County, Arizona, in its definition as 
it is the county in Arizona that is closest to Nevada, and 
therefore closest to the testing ranges.
    But when RECA was reauthorized and amended in 2000, the 
purpose was to expand eligibility. With respect to Arizonans' 
eligibility, the definition of the affected areas changed to 
reflect certain specific counties. Of the five Arizona counties 
listed in the 2000 act, Mojave County is not among them. Then, 
in 2002, technical corrections were made to the 2000 act to 
reflect part of the 1990 language concerning Arizona. So after 
the 2002 correction, the law listed the five counties that 
included the language and that part of Arizona that is north of 
the Grand Canyon. Again, Mojave County is the closest of the 
Arizona counties to the Nevada border and, therefore, to the 
nuclear testing ranges. The Arizona counties directly east and 
southeast from Mojave County are both covered in their 
entirety.
    This omission seems to be a clerical error, which is 
consistent with the fact that the 2000 reauthorization 
contained composition errors that had to be fixed in a separate 
2002 act. To correct the omission, Congressman Trent Franks, a 
member of this committee, introduced bills in the 111th and 
112th Congresses to include Mojave County as an affected area 
for RECA purpose. Because I am now the representative of Mojave 
County, I have reintroduced the bill in the 113th Congress. It 
is known as H.R. 424, the Mojave County Radiation Compensation 
Act. And I am pleased to have Representative Franks as an 
original cosponsor.
    I thank Representative Franks for his continued support for 
this cause. It is this exact language that I am seeking to have 
included in the National Defense Authorization Act for the 
fiscal year 2014. The trust fund associated with these claims 
has been active since 1992, and the fund will sunset in 2022 by 
statute. My goal is to ensure that the affected residents of 
Mojave County, Arizona, have a fair shot at justified 
compensation before the trust fund is closed. It will not 
increase costs, it will simply allow constituents who should 
have been included in the 2002 law to submit a claim.
    Each Mojave claimant should be subject to the same burden 
of proof as any other claimants. But for Congress to deny the 
rest of Mojave County, Arizona, the right to even file a claim 
is both inconsistent and careless.
    Again, I thank the committee for providing this opportunity 
to be heard. It is my hope that the committee will favorably 
adopt this language and ensure that my constituents affected by 
the government's nuclear weapons testing are eligible for 
reasonable and justified compensation. I thank you.
    [The prepared statement of Mr. Gosar can be found in the 
Appendix on page 130.]
    The Chairman. I thank the gentleman.
    Are there any questions?
    I have one. Is this a stand-alone act, this RECA?
    Mr. Gosar. It is a stand-alone act, and it was based upon 
compensation for those individuals that took on nuclear 
radiation or worked with the nuclear industry for testing, were 
in the military coming from Nevada.
    The Chairman. Has it ever been a part of the NDAA?
    Mr. Gosar. That I am not sure.
    It has been. Sorry about that. It has been part of the 
NDAA.
    The Chairman. Does it have jurisdiction in other 
committees?
    Mr. Gosar. The other one would be Judiciary.
    The Chairman. Okay. Well, we will look into that. Thank you 
very much.
    Mr. Gosar. Thank you.
    The Chairman. Mr. Green. Gentleman is recognized.

    STATEMENT OF HON. AL GREEN, A REPRESENTATIVE FROM TEXAS

    Mr. Green. Thank you, Mr. Chairman. And I thank the ranking 
member as well. And, Mr. Chairman, I, too, will be brief.
    The Chairman. Is your mike on?
    Mr. Green. It is now. Thank you.
    The view from here is slightly different, Mr. Chairman, I 
might add.
    If I may just take a second, Mr. Chairman, and say this, I 
know that the time is precious. But I was very much impressed 
with Mr. Bridenstine's statements about his record. He looks so 
young. And God has truly been good to him and he has been good 
to his country. And in his absence, I would just like to let 
him know that I appreciate his service, and thank you for that 
moment.
    Mr. Chairman, I am here to talk about the HAVEN [Housing 
Assistance for Veterans] Act. It received bipartisan support in 
the 112th Congress. It went through the House and through the 
Senate and made it to conference committee, but it did not make 
it through the conference committee. This is a piece of 
legislation designed to assist disabled and low-income 
veterans, to help them with their housing needs, to modify 
their homes, their bathrooms, their kitchens, so that they may 
use them efficaciously.
    I am honored to tell you that this legislation will result 
in a pilot program wherein NGOs [nongovernmental organizations] 
will have the opportunity to work with our veterans to perfect 
the renovations necessary.
    This is a great piece of legislation, in my opinion, and I 
have just hope that we will be able to get it into the Defense 
Authorization Act. I could say a lot more about the number of 
veterans that may benefit, but you and I know that we have a 
good many coming home who don't return the way they left. And 
they need this help. So I am begging, I beseech, I implore that 
we place this in the NDAA.
    [The prepared statement of Mr. Green can be found in the 
Appendix on page 90.]
    The Chairman. Thank you.
    Any questions?
    This committee doesn't have jurisdiction or responsibility 
for the veterans, but we create the veterans.
    Mr. Green. Yes, sir.
    The Chairman. So we feel strongly about the veterans. So we 
will look into this and see where it fell out last time and if 
there is some way we can include it this time. So thank you 
very much.
    Mr. Green. I thank you, Mr. Chairman, and I thank the 
ranking member as well. Thank you both.
    The Chairman. Thank you.
    Mr. O'Rourke. Gentleman is recognized.

  STATEMENT OF HON. BETO O'ROURKE, A REPRESENTATIVE FROM TEXAS

    Mr. O'Rourke. Chairman McKeon and Ranking Member Smith, 
thank you for this opportunity to testify about the fiscal year 
2014 National Defense Authorization Act. I would also like to 
thank the chairman and his staff for being so accommodating so 
that I could testify in person.
    I have the honor of representing El Paso, home to Fort 
Bliss and the Army's 1st Armored Division, along with nearly 
33,000 soldiers and their family members. I was reminded again 
this week of the incredible sacrifice these service members and 
their families make to our country when five soldiers from Fort 
Bliss were killed in an IED attack in Afghanistan.
    I would like to testify about three things today. Number 
one, the ability of Fort Bliss to adapt to the changing needs 
of the Army and the amazing support it has in El Paso. Number 
two, the new Army hospital at Fort Bliss. And number three, the 
importance of the Tuition Assistance Program. The Army's 
ability to field a ready and capable force to meet its mission 
requirements has been placed at risk by fiscal challenges in 
fiscal year 2013, especially the sequester. Despite these 
challenges, the Army remains the best trained, best equipped, 
and best led fighting force in the world. I urge this committee 
to use the National Defense Authorization Act to guarantee that 
this remains true.
    Even absent the sequester the reality is that the Army is 
significantly reducing its Active Duty force. This reduction 
should be carried out in a way that prioritizes readiness, 
balance, and flexibility. Fort Bliss is well-suited to help the 
Army meet these objectives. To echo the words of former 
Secretary of Defense Leon Panetta when he visited the 
installation, Fort Bliss is the premier post in America.
    The El Paso region and the entire Fort Bliss community 
continue to go above and beyond in their steadfast support of 
our soldiers and their families. El Paso has invested over $2 
billion in highway projects, new schools, and a children's 
hospital to support the growth at Fort Bliss. Recently, we 
agreed to tax ourselves to pay for additional quality-of-life 
projects around the installation. Civil, political, and 
business leaders all work closely with Major General Pittard 
and Fort Bliss leadership to make El Paso a great place for 
soldiers and their families, and we will continue to do so.
    Fort Bliss has always responded swiftly when the needs of 
the Army have changed. In 2005, it became the new world-class 
home for Old Ironsides, the 1st Armored Division, providing 
nearly 1 million acres of maneuver area for this division to 
train and later seamlessly receiving several brigade combat 
teams and their supporting units. Fort Bliss is uniquely 
situated to serve the evolving needs of the Army.
    Service members and their families depend on top quality 
health care from the Army. Thanks to the past work of this 
committee, the new William Beaumont Army Medical Center stands 
ready to fill this role. The hospital complex will have a 7-
story hospital building with 135 private rooms, 30 specialty 
clinics, and a 4-story administration building. The hospital is 
designed to last for the next 50 years and is expected to set a 
new bar in patient care for the Army. I urge this committee to 
continue to support this project so that our soldiers, 
including our wounded warriors returning home, receive the 
world-class care that they deserve.
    I also urge the committee to continue support for the 
Military Tuition Assistance Program in fiscal year 2014. In the 
last year alone, this program has allowed service members to 
take 870,000 classes and earn over 50,000 degrees, diplomas, 
and certificates. It constitutes 0.1 percent of the Department 
of Defense's budget. I was proud to work with Joe Wilson from 
this committee on maintaining tuition assistance during the CR 
[continuing resolution] debate. Denying our brave men and women 
access to education programs will negatively impact their 
ability to carry out their missions while in service and it 
will also make it harder for them to find jobs after 
transitioning out of the military.
    Recently, I led 68 of our colleagues from both sides of the 
aisle in submitting a letter to the Defense Appropriations 
Subcommittee to support full funding in fiscal year 2014. While 
I don't serve on this committee, I have a very keen interest in 
seeing these priorities carried out. I thank you for the 
opportunity to testify.
    [The prepared statement of Mr. O'Rourke can be found in the 
Appendix on page 158.]
    The Chairman. Thank you.
    Any questions of the gentleman?
    Thank you very much.
    Mr. O'Rourke. Thank you.
    The Chairman. That concludes Members that have signed up to 
give testimony before the committee. There are several others 
who have submitted written testimony. That will be included in 
the record.
    And that concludes our business for today. The committee 
stands adjourned.
    [Whereupon, at 2:31 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 8, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 8, 2013

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 8, 2013

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                    <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
